<html>
<title> - OVERSIGHT HEARING ON ``OVERSIGHT OF THE ACTIONS, INDEPENDENCE AND ACCOUNTABILITY OF THE ACTING INSPECTOR GENERAL OF THE DEPARTMENT OF THE INTERIOR.''</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]








   OVERSIGHT OF THE ACTIONS, INDEPENDENCE AND ACCOUNTABILITY OF THE 
      ACTING INSPECTOR GENERAL OF THE DEPARTMENT OF THE INTERIOR

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, August 2, 2012

                               __________

                           Serial No. 112-123

                               __________

       Printed for the use of the Committee on Natural Resources







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-493 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 John Garamendi, CA
Kristi L. Noem, SD                   Colleen W. Hanabusa, HI
Steve Southerland II, FL             Paul Tonko, NY
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, August 2, 2012.........................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3
    Markey, Hon. Edward J., a Representative in Congress from the 
      Commonwealth of Massachusetts..............................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Kendall, Mary L., Acting Inspector General, U.S. Department 
      of the Interior............................................     6
        Prepared statement of....................................     8

Additional materials supplied:
    Capital Press article entitled ``Dam removal `extreme,' says 
      fired scientist,'' dated June 7, 2012, submitted for the 
      record by The Honorable Tom McClintock.....................    29
    The Daily Caller article entitled ``Former Interior Dept. 
      adviser: Administration's report on dam removal 
      `intentionally biased' '' dated April 5, 2012, submitted 
      for the record by The Honorable Tom McClintock.............    30
    Houser, Dr. Paul R., Science Advisor, Bureau of Reclamation, 
      U.S. Department of the Interior, Memorandum to the Office 
      of the Executive Secretariat and Regulatory Affairs, U.S. 
      Department of the Interior, dated February 24, 2012, 
      submitted for the record by The HonorableTom McClintock....    62
    Kendall, Mary L., Acting Inspector General, U.S. Department 
      of the Interior, Letter to The Honorable Doc Hastings dated 
      July 20, 2012, submitted for the record by The Honorable 
      Tom McClintock.............................................    27
    redding.com article entitled `` `Whistleblower' will speak 
      about Klamath dam removals; scientist's advice opposed 
      their removal'' submitted for the record by The Honorable 
      Tom McClintock.............................................    31
                                     


 
   OVERSIGHT HEARING ON ``OVERSIGHT OF THE ACTIONS, INDEPENDENCE AND 
ACCOUNTABILITY OF THE ACTING INSPECTOR GENERAL OF THE DEPARTMENT OF THE 
                              INTERIOR.''

                              ----------                              


                        Thursday, August 2, 2012

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to notice, at 10:03 a.m., in 
Room 1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Gohmert, Lamborn, Broun, 
Fleming, McClintock, Thompson, Duncan of South Carolina, Noem, 
Southerland, Flores, Landry, Markey, DeFazio, Holt, Grijalva, 
Bordallo, Sablan, and Lujan.
    The Chairman. The Committee will come to order, and the 
Chair notes the presence of a quorum, which, under Rule 3(e) is 
2 Members. And I appreciate your being here.
    The Committee on Natural Resources is meeting today to hear 
testimony on an oversight hearing on ``Oversight of the 
Actions, Independence, and Accountability of the Acting 
Inspector Genera l of the Department of the Interior.'' Under 
Committee Rule 4(f), opening statements are limited to the 
Chairman and the Ranking Member of the Committee. However, I 
ask unanimous consent that any Members that would wish to have 
a statement in the record have it by close of business today.
    [No response.]
    The Chairman. And without objection, so ordered. I will now 
recognize myself for 5 minutes.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. Two years ago, members of this Committee 
called on the Department of the Interior's Acting Inspector 
General to conduct an investigation into the Department's May 
2010 Drilling Moratorium Report Executive Summary that was 
edited to appear as though the 6-month drilling moratorium was 
supported by engineering experts, when it was not.
    After initially declining, the IG ultimately agreed to 
conduct an investigation. An 8-page report was issued 5 months 
later that confirmed that White House officials were 
responsible for editing the report's Executive Summary, but the 
IG was unable to independently verify whether the authors 
intended to mislead the public.
    Since becoming Chairman, this Committee has been conducting 
an investigation into the editing of this report and how the 
moratorium decision was made. Along the way, troubling 
questions have arisen about the thoroughness and independence 
of the Acting IG's investigation, as well as the IG's 
unwillingness to fully cooperate with the Committee's 
investigation.
    The Inspector General Act of 1978 requires the IG to be 
independent, to cooperate with and provide information to 
Congress, and to protect whistleblowers. Essentially, an IG is 
to be an independent watchdog of the Executive Branch. There 
are legitimate questions that this independence in this case is 
being compromised. This includes the refusal of the Acting IG 
to provide documents subpoenaed by the Committee based on the 
perceived grounds that the Administration may exert Executive 
Privilege to withhold these documents. This was done without 
the Acting IG's office ever being informed by the 
Administration of its intentions to assert actual Executive 
Privilege, or ever inquiring if the Administration had any such 
intentions.
    In addition, the documents obtained by the Committee raise 
red flags about the IG's investigation into the Drilling 
Moratorium Report. Emails from the IG's investigators detail 
how they were not able to obtain all DOI documents that may 
have been relevant to their investigation, and they were not 
allowed to interview Secretary Salazar or White House staff 
involved in editing the report.
    To quote one such email by a lead investigator--and I am 
directly quoting now--``I am deeply concerned that this is yet 
another example of how a double standard is being followed in 
this investigation in granting great deference to the 
Secretary's office that would not be granted to any other 
department bureaus or employees.''
    Another email the lead investigator wrote--and I again 
directly quote--``I truly believe the editing was 
intentional.'' Let me start over again. ``I truly believe the 
editing was intentional by an overzealous staffer at the White 
House. And, if asked, I, as a case agent, would be happy to 
state that opinion to anyone interested.''
    The thoroughness of the IG's investigation is very 
important. The IG report is being used by the Obama 
Administration as a defense that this matter has been 
investigated and resolved. In reality, the Department has never 
had to disclose key documents or answer questions on how and 
why this report was edited.
    Finally, it is important to learn more today about the 
Acting IG's exact role and the participation in a board and the 
process that produced the Drilling Moratorium Report. In 
testimony before this Committee in 2010, Ms. Kendall stated 
that she was not involved in the process of developing this 
report. However, this statement appears inconsistent with 
documents showing that she attended meetings with senior 
Department officials developing the report, receiving drafts of 
the report in advance of its release, and accepted an 
invitation by the Department to serve on the Secretary's OCS 
Safety Oversight Board.
    I have to question the ability to be impartial in 
investigating a matter that one admits to having direct 
knowledge and involvement with, including direct interaction 
with the very political appointees on the matter being 
investigated. This does not strike me as the type of 
independent role that IGs are expected to serve.
    This raises a bigger question about the role of an Acting 
IG. The question is whether an IG in an acting capacity can 
truly be impartial investigating an Administration while openly 
expressing the desire to be the permanent IG--and, of course, 
that position is nominated by the President.
    To be clear, these are not questions broadly about the 
employees and investigators in the IG's office, but rather 
about the leadership and administration of the office. The 
written testimony of the Acting IG seeks to provide a defense 
and explanation of certain actions, but in several instances it 
raises yet more questions.
    It is hoped that direct answers will be forthcoming, though 
we are prepared to take the necessary steps, including those 
that extend beyond today's hearing, to ensure we receive all of 
the facts.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    Two years ago, Members of this Committee called on the Department 
of the Interior's Acting Inspector General to conduct an investigation 
into the Department's May 2010 Drilling Moratorium Report Executive 
Summary that was edited to appear as though the six-month drilling 
moratorium was supported by engineering experts when it was not.
    After initially declining, the IG ultimately agreed to conduct an 
investigation. An 8-page report was issued five months later that 
confirmed that White House officials were responsible for editing the 
report's Executive Summary, but the IG was unable to independently 
verify whether the authors intended to mislead the public.
    Since becoming Chairman, this Committee has been conducting an 
investigation into the editing of this report and how the moratorium 
decision was made. Along the way, troubling questions have arisen about 
the thoroughness and independence of the Acting IG's investigation, as 
well as the IG's unwillingness to fully cooperate with the Committee's 
investigation.
    The Inspector General Act of 1978 requires an IG to be independent, 
to cooperate with and provide information to Congress, and to protect 
whistleblowers. Essentially, an IG is to be an independent watchdog of 
the Executive Branch. There are legitimate questions that this 
independence is being compromised.
    This includes the refusal of the Acting IG to provide documents 
subpoenaed by the Committee based on the perceived grounds that the 
Administration may exert Executive Privilege to withhold these 
documents. This was done without the Acting IG's office ever being 
informed by the Administration of intentions to assert actual Executive 
Privilege or ever inquiring if the Administration had any such 
intentions.
    In addition, documents obtained by the Committee raise red flags 
about the IG's investigation into the Drilling Moratorium Report. 
Emails from the IG's investigators detail how they were not able to 
obtain all DOI documents that may have been relevant to their 
investigation, and they were not allowed to interview Secretary Salazar 
or White House staff involved in editing the report.
    To quote one such email by a lead investigator, ``I am deeply 
concerned that this is yet another example of how a double standard is 
being followed in this investigation in granting great deference to the 
Secretary's office that would not be granted to any other department 
bureaus or employees.''
    In another email, the lead investigator wrote, ``I truly believe 
the editing `WAS' intentional--by an overzealous staffer at the White 
House. And, if asked, I, as the case agent, would be happy to state 
that opinion to anyone interested.''
    The thoroughness of the IG's investigation is very important. The 
IG report is being used by the Obama Administration as a defense that 
this matter has been investigated and resolved. In reality, the 
Department has never had to disclose key documents or answer questions 
on how and why this report was edited.
    Finally, it is important to learn more today about the Acting IG's 
exact role and participation in a Board and the process that produced 
the Drilling Moratorium Report. In testimony before this Committee in 
2010, Ms. Kendall stated that she was not involved in the process of 
developing the report. However, this statement appears inconsistent 
with documents showing that she attended meetings with senior 
Department officials developing the report, received drafts of the 
report in advance of its release, and accepted an invitation by the 
Department to serve on the Secretary's OCS Safety Oversight Board.
    I have to question the ability to be impartial in investigating a 
matter that one admits to having direct knowledge and involvement with, 
including direct interaction with the very political appointees on the 
matter being investigated. This does not strike me as the type of 
independent role that IG's are expected to serve.
    This raises a bigger question about the role of an Acting IG. The 
question is whether an IG in an acting capacity can truly be impartial 
investigating an Administration while openly expressing the desire to 
be the permanent IG, which is nominated by the President.
    To be clear, these are not questions broadly about the employees 
and investigators in the IG's office, but rather about the leadership 
and administration of the office. The written testimony of the Acting 
IG seeks to provide a defense and explanation of certain actions, but 
in several instances it raises yet more questions.
    It is hoped that direct answers will be forthcoming, though we are 
prepared to take necessary steps, including those that extend beyond 
today's hearing, to ensure we receive all of the facts.
                                 ______
                                 
    The Chairman. And with that, I will recognize the 
distinguished Ranking Member.

  STATEMENT OF THE HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman. I am giving my remarks 
today while playing the BP Spill Cam. I am doing this not 
because I like watching millions of barrels of oil gush into 
America's waters and pollute our shores, but rather to help my 
Republican colleagues remember the disaster they now seem to 
have completely forgotten.
    It is bad enough that the Republican House has not passed a 
single piece of legislation to improve the safety of offshore 
drilling. Last week Republicans passed two bills that would put 
the American people at greater risk of another devastating oil 
spill. One bill would force us to rush new drilling off the 
beaches of California, Maine, New Hampshire, Massachusetts, 
Rhode Island, Connecticut, New York, New Jersey, Maryland, and 
other States, all without any new safety reforms. The other, 
the Republican Regulatory Freeze Act, would block all manner of 
health, safety, and environmental protections, including new 
safeguards being developed by the Department of the Interior to 
improve the safety requirements for offshore blow-out 
preventers, cementing, casing, and well design.
    Compared to these bills, the investigation we are dealing 
with today has the advantage of being trivial. But it is no 
less misguided. We should be thanking today's witnesses for 
helping to highlight important safety reforms at the Interior 
Department and prevent another catastrophic spill from every 
happening again. But the Committee Republicans aren't 
interested in looking at reforms to improve the safety of 
offshore drilling. Instead, we are here to investigate the 
investigation of a 2-year-old copy-and-paste mistake.
    Nearly 30 days after the BP spill, with oil still gushing 
into the Gulf, Administration officials worked late into the 
night on a report from the Secretary of the Interior set to be 
released the next day that offered recommendations to the 
President on how to respond. Between the hours of 11:00 p.m. 
and 3:00 a.m., text was moved around in the Executive Summary 
in a way that created ambiguity about whether the report's 
external peer reviewers, many of whom consulted for the 
offshore drilling industry, supported a 6-month moratorium on 
drilling in the Gulf of Mexico. The reviewers endorsed an 
undefined temporary pause in deepwater drilling, but did not 
review the recommendation of a 6-month moratorium.
    When some of the external reviewers expressed concerns 
about the Executive Summary, Secretary Salazar immediately sent 
public apology letters to them, clarifying that their 
recommendation for a 6-month moratorium was his alone. 
Secretary Salazar.
    Congressional Republicans, including our Chairman, then 
asked the Interior Department's Office of Inspector General to 
investigate whether the edits were intentional and politically 
motivated. The OIG reviewed drafts of the report, emails 
exchanged between the Department of the Interior and the White 
House, and interviewed peer reviewers, as well as Department of 
the Interior employees involved in the editing. The conclusion? 
There was no evidence of wrongdoing.
    Not satisfied with this conclusion, the Committee Majority 
has responded by turning its investigation to the Acting 
Inspector General, Mary Kendall. But the Majority's problem is 
not really with Ms. Kendall. And it is not with the White House 
or the Interior Department, either. The Majority's problem is 
with the facts. The facts don't show what the Majority wants 
them to show. So, now, all that is left is to investigate the 
investigation.
    I want to close again by reminding the Majority of what was 
happening at the time. Look at these monitors. This is what 
Secretary Salazar and the others in the Administration were 
trying to stop. This is what they wanted to prevent from ever 
happening again. And this is what we in this Committee should 
be working to prevent. This is under the jurisdiction of this 
Committee, to put the safety measures in place to make sure it 
does not happen again. And this is what this Committee has 
avoided doing for 2 years to protect against a repetition.
    Instead, the Majority is wasting the Committee's time on 
this trivial and baseless investigation of an investigation. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    I am giving my remarks today while playing the BP spill cam. I am 
doing this not because I like watching millions of barrels of oil gush 
into America's waters and pollute our shores, but rather to help my 
Republican colleagues remember the disaster they now seem to have 
completely forgotten.
    It's bad enough that the Republican House has not passed a single 
piece of legislation to improve the safety of offshore drilling. Last 
week, Republicans passed two bills that would put the American people 
at greater risk of another devastating oil spill.
    One bill would force us to rush new drilling off the beaches of 
California, Maine, New Hampshire, Massachusetts, Rhode Island, 
Connecticut, New York, New Jersey, Maryland, Virginia, North and South 
Carolina and in Bristol Bay off Alaska, all without any new safety 
reforms. The other, the Republican ``Regulatory Freeze Act,'' would 
block all manner of health, safety and environmental protections, 
including new safeguards being developed by the Department of Interior 
to improve the safety requirements for offshore blowout preventers, 
cementing, casing and well design.
    Compared to these bills, the investigation we are dealing with 
today has the advantage of being trivial. But it's no less misguided.
    We should be thanking today's witness for helping to highlight 
important safety reforms at the Interior Department and prevent another 
catastrophic spill from ever happening again. But Committee Republicans 
aren't interested in looking at reforms to improve the safety of 
offshore drilling. Instead, we are here to investigate the 
investigation of a two-year-old copy-and-paste mistake.
    Nearly 30 days after the BP spill, with oil still gushing into the 
Gulf, Administration officials worked late into the night on a report 
from the Secretary of Interior--set to be released the next day--that 
offered recommendations to the President on how to respond. Between the 
hours of 11:00 p.m. and 3:00 a.m., text was moved around in the 
executive summary in a way that created ambiguity about whether the 
report's external peer reviewers--many of whom consulted for the 
offshore drilling industry--supported a six-month moratorium on 
drilling in the Gulf of Mexico. The reviewers endorsed an undefined 
``temporary pause'' in deepwater drilling, but did not review the 
recommendation of a six-month moratorium.
    When some of the external reviewers expressed concerns about the 
executive summary, Secretary Salazar immediately sent public apology 
letters to them clarifying that the recommendation for a six-month 
moratorium was his alone.
    Congressional Republicans, including our Chairman, then asked the 
Interior Department's Office of Inspector General to investigate 
whether the edits were intentional and politically motivated. OIG 
reviewed drafts of the report, emails exchanged between DOI and the 
White House, and interviewed peer reviewers as well as DOI employees 
involved in the editing. The conclusion: There was no evidence of 
wrongdoing.
    Not satisfied with this conclusion, the Committee Majority has 
responded by turning its investigation to the Acting Inspector General 
Mary Kendall. But the Majority's problem is not really with Ms. 
Kendall. And it's not with the White House or the Interior Department 
either. The Majority's problem is with the facts.
    The facts don't show what the Majority wants them to show. So now 
all that's left is to investigate the investigation.
    I want to close by again reminding the Majority of what was 
happening at the time. Look at the monitors. This is what Secretary 
Salazar and others in the Administration were trying to stop. This is 
what they wanted to prevent from ever happening again. And this is what 
we in this Committee should be working to prevent.
    Instead, the Majority is wasting the Committee's time on this 
trivial and baseless investigation of an investigation.
                                 ______
                                 
    The Chairman. I thank the gentleman for his statement. And 
I want to welcome the Acting Inspector General of the U.S. 
Department of the Interior, Ms. Mary Kendall. Thank you very 
much for being here.
    You have been in front of the Committee before, so you know 
how the lights work. But let me remind you again. Your full 
statement will appear in your record, and we all have your 
extensive full statement. When the green light comes on, the 5-
minute clock starts. And when the yellow light comes on you 
have 30 seconds. And I would ask you to keep your remarks 
within that timeframe, if you could.
    And so, with that, welcome. And you are recognized for 5 
minutes.

STATEMENT OF MARY L. KENDALL, ACTING INSPECTOR GENERAL, UNITED 
               STATES DEPARTMENT OF THE INTERIOR

    Ms. Kendall. Mr. Chairman and members of the Committee, 
good morning and thank you for holding this hearing today. As 
you know, Inspectors General are appointed or designated 
without regard to political affiliation and solely on the basis 
of integrity and demonstrated ability in a number of fields, 
pursuant to Section 3 of the IG Act.
    Section 2 of the Act establishes independence and 
objectivity expectation. Although neither appointed nor 
designated, Acting Inspectors General are expected to conduct 
themselves with integrity, independence, and objectivity in a 
non-partisan manner.
    For the past 4 months, I have weathered the scrutiny of 
this Committee, which has used a unilateral approach to 
investigate me by requesting select documents from the Office 
of Inspector General, drawing conclusions from those documents 
without all the facts, and presenting those conclusions to the 
public via press releases, challenging my integrity, 
independence, and objectivity. Therefore, I welcome the 
opportunity to testify today, respond to questions, and present 
all the facts as I know them.
    The letter requesting my attendance at this hearing said I 
should be prepared to answer questions about my role relative 
to the 6-month drilling moratorium in the Gulf of Mexico 
following the Deepwater Horizon disaster, the OIG investigation 
into perceived representation that the moratorium decision had 
been peer reviewed, my response to a Committee subpoena for 
documents, the independence and effectiveness of an Acting 
Inspector General, and my previous testimony before the 
Committee. In short, I can answer these issues as follows.
    I stand behind the OIG investigation into the allegation 
that DOI senior officials, in an effort to help justify their 
decision to impose a 6-month moratorium on deepwater drilling, 
misrepresented that the moratorium was reviewed and supported 
by the National Academy of Engineering Scientists and industry 
experts. This alleged misrepresentation was contained only in 
the Executive Summary of a report commonly called the 30-Day 
Report. Therefore, the Executive Summary was the focus of the 
OIG investigation.
    The question of whether there was intentional 
misrepresentation came down to a review of emails exchanged 
between DOI and the White House in the late hours of May 26th 
and early hours of May 27, 2010, in which the Executive Summary 
was being edited. These emails revealed no evidence that the 
Executive Summary was intentionally edited to lead readers to 
believe that the moratorium recommendation had been peer 
reviewed.
    This Committee has posted on its website a number of emails 
from the case agent who investigated the peer review issue that 
suggest he was not allowed to conduct every investigative step 
he wanted to take. None of the agent's complaints was made 
known to me during the course of the investigation. Had they 
been brought to my attention, I would have addressed them 
directly with the case agent. But in the end, based on what the 
case agent presented to me, I was confident that our 
investigation was well done, thorough, and to the point, which 
is precisely what I expressed to the case agent directly in 
email.
    Until this matter, in my 26 years with the Federal 
Government, I have never experienced an instance in which 
Executive Privilege came into play. We have since learned that 
the process by which such differences of position between the 
legislative and executive branches are resolved is both lengthy 
and complex. I reiterate my position that the dispute between 
this Committee is between this Committee and the Department. 
The documents are not the OIG's, neither is the privilege the 
OIG's to either assert or waive.
    As Acting Inspector General, I have exercised all the 
independence and objectivity necessary to meet the OIG mission. 
I have elected to exercise this independence and objectivity in 
a way that maintains a healthy tension between the OIG and the 
Department we oversee. I believe, however, that independence 
and objectivity are not compromised by a respectful 
relationship with both the Department and the Congress, the two 
entities we are charged with keeping fully informed, pursuant 
to the IG Act. As a result, we have affected a great deal of 
positive change over the past 3 years, by working with the 
Department in a spirit of respect to achieve such change.
    Although I have testified before this Committee numerous 
times, I assume that the questions relate to my testimony on 
June 17, 2010 about which the Committee has said it has serious 
questions. I addressed those questions in my letter of June 27, 
2012 to the Committee, and in my formal statement today.
    Mr. Chairman, I hope we can adjourn today having addressed 
all the questions the Committee may have about me. Although the 
questions you have raised about me reflect on the OIG, it has 
become clear that your questions are really about me--if 
nothing else, from the title of this hearing today.
    Mr. Chairman, I have been an attorney and a member of the 
bar in good standing approaching 30 years. I have been a public 
servant for over 26 years, all but 3 of those years in the law 
enforcement arena, without blemish to my record. And I was born 
and raised in the Midwest, where one's honor and word are 
sacrosanct.
    The past 17 weeks have been the most painful and difficult 
of my entire career, not only because it taxed on my personal 
integrity, but because this has eclipsed all the outstanding 
work that the OIG has done and continues to do.
    This concludes my remarks. I request that my corrected 
formal statement be accepted into the record. And I am prepared 
to answer any questions the members of the Committee may have.
    [The prepared statement of Ms. Kendall follows:]

        Statement of Mary L. Kendall, Acting Inspector General, 
                    U.S. Department of the Interior

    This hearing is the result of a subpoena and a series of letters 
sent by this Committee to the Office of Inspector General (OIG) for the 
Department of the Interior seeking documents concerning an OIG 
investigation conducted in 2010 regarding the drilling moratorium 
imposed in the Gulf of Mexico following the Deepwater Horizon disaster. 
The subpoena was dated March 30, 2012; the letters were dated April 6, 
May 2, May 10, May 22, May 30, and June 25, 2012. On May 24, 2012, 
another letter was issued from Senators Jeff Sessions, David Vitter and 
John Cornyn, to the Integrity Committee for the Council of Inspectors 
General for Integrity and Efficiency citing documents obtained by this 
Committee from the OIG and press releases issued by the Committee.
    Inspectors General, are appointed or designated ``without regard to 
political affiliation and solely on the basis of integrity and 
demonstrated ability'' in a number of fields, pursuant to Section 3 of 
the IG Act. Section 2 of the IG Act establishes the independence and 
objectivity expectation. Although neither appointed nor designated, 
Acting Inspectors General are also expected to conduct themselves with 
integrity, independence and objectivity in a non-partisan manner, and I 
have conscientiously adhered to these principles during my tenure in 
the OIG as Deputy Inspector General, General Counsel and Acting 
Inspector General.
    For the past four months, I have weathered the scrutiny of this 
Committee which has used a unilateral approach to ``investigate'' me by 
requesting select documents from the Office of Inspector General (OIG), 
drawing conclusions from those documents without all the facts, and 
presenting those conclusions to the public via press releases, 
challenging my integrity, independence and objectivity. Therefore, I 
welcome the opportunity today to testify, respond to questions, and 
present all the facts, as I know them.
Background
    On April 20, 2010, an explosion on the Deepwater Horizon oil 
drilling rig resulted in the tragic deaths of 11 rig workers and 
injuries to 17 others. After burning for two days, the Deepwater 
Horizon plunged to the bottom of the Gulf of Mexico, causing the drill 
pipe to rupture, resulting in the largest marine oil spill in the 
history of the United States and an immediate environmental disaster in 
the Gulf, spilling 4.9 million barrels of oil over a nearly three-month 
period.
    In the wake of this disaster, the President directed the Secretary 
of the Interior, Ken Salazar, to conduct a thorough review of this 
event and report within 30 days on what short-term ``precautions and 
technologies should be required to improve the safety of oil and gas 
exploration and production operations on the outer continental shelf.'' 
This was officially titled, Increased Safety Measures for Energy 
Development on the Outer Continental Shelf, but became commonly known 
as the ``30-Day Report.''
    Nearly contemporaneously with the President's directive, Secretary 
Salazar created, by Secretarial Order (Attachment 1), the Outer 
Continental Shelf (OCS) Safety Oversight Board (OCS Board). The OCS 
Board consisted of the Assistant Secretary for Lands and Minerals; the 
Assistant Secretary for Policy, Management and Budget; and the Acting 
Inspector General. The Deputy Secretary, on behalf of the Secretary, 
appealed to me personally to participate on the board as an independent 
and objective member. I agreed to do so, but made clear that I would 
conduct myself independently and objectively, and that I would not be a 
part of any policy decisions.
    The OCS Board was charged to:
        1)  provide oversight, support, and resources to the then-
        Minerals Management Service regarding its responsibilities in 
        the Joint Investigation into the Deepwater Horizon disaster;
        2)  provide the Secretary with periodic progress reports 
        regarding the Joint Investigation;
        3)  make recommendations on measures that may enhance OCS 
        safety; and
        4)  make recommendations to improve and strengthen the 
        Department's overall management, regulation and oversight of 
        OCS operations.
Informational Meetings in the Wake of the Deepwater Horizon Disaster
    When the President directed Secretary Salazar to recommend short-
term actions to improve industry practices and standards for deepwater 
oil drilling, Steve Black, Counselor to Secretary Salazar, was placed 
in charge of a team responsible for producing the 30-Day Report that 
contained these short-term recommendations. I was not a member of that 
team.
    In order to fulfill my role on the OCS Board, however, I needed to 
gain a basic understanding of deepwater drilling. Therefore, I attended 
a number of information-gathering meetings, organized by Steve Black, 
with representatives from industry, government, and the engineering and 
scientific communities. I viewed these meetings as both educational, in 
terms of learning about myriad aspects of deepwater drilling, and 
helpful, in terms of navigating the role of the OCS Board. In none of 
these information-gathering meetings that I attended was the substance 
of the 30-Day Report discussed.
    On May 25, 2010, two days before DOI issued the 30-Day Report, I 
was invited, as a member of the OCS Board, to attend a conference call 
intended to provide the National Academy of Engineers (NAE) Peer 
Reviewers an opportunity to comment on the draft 30-Day Report. I was 
invited to this conference call for informational purposes only. A copy 
of the already-written draft 30-Day Report was attached to the email 
invitation (Attachment 2). Neither the OCS Board collectively nor I 
individually commented on the 30-Day Report.
    The 30-Day Report, containing 22 recommendations, was issued on May 
27, 2010, together with an Executive Summary (Attachment 3), the latter 
of which was still being drafted by Steve Black between 11:38 p.m. on 
May 26 and 2:13 a.m. on May 27. The Executive Summary also included the 
Secretary's recommendation for a drilling moratorium in the Gulf of 
Mexico. This moratorium recommendation was not contained in the 30-Day 
Report itself. Upon reading the published report and the Executive 
Summary, the scientists and industry experts who peer reviewed the 
safety recommendations contained in the 30-Day Report expressed concern 
that the Executive Summary was worded in a manner that implied that the 
experts had also peer reviewed and supported this policy decision, 
when, in fact, they had not and did not.
    The allegation that certain emails (See Attachment 2 and Attachment 
4) suggest that I played a significant role in developing what the 
Committee calls ``the Drilling Moratorium Report'' (but which should be 
called the 30-Day Report) is not borne out. The subject emails merely 
indicated my attendance at informational meetings organized by Steve 
Black leading up to the 30-Day Report. I did not, however, participate 
in the drafting of the 30-Day Report. Regardless, the OIG did not 
investigate the 30-Day Report. Rather, the OIG investigated the editing 
of the Executive Summary to the 30-Day Report, drafted and edited by 
Steve Black and White House personnel in the late hours of May 26 and 
early hours of May 27, 2010, in which the moratorium recommendation was 
made (Attachment 5). Therefore, the OIG investigation into the manner 
in which the Executive Summary was edited to suggest that the 
moratorium was peer reviewed, did not present a conflict of interest 
for me, and my testimony on June 17, 2010 was accurate.
OIG Investigation
    At the request of multiple members of Congress (Attachments 6 and 
7), including the Chair of this Committee, the OIG launched an 
investigation into the allegation that DOI senior officials, in an 
effort to help justify their decision to impose a six-month moratorium 
on deepwater drilling, misrepresented that the moratorium was reviewed 
and supported by the National Academy of Engineering scientists and 
industry experts. The requests asked that the OIG ``identify when and 
how the modification of the report occurred'' (see Attachment 6) and 
clarified the scope: ``To be clear, we are not asking you to 
investigate the moratorium. We are asking you to investigate the 
changes made to the 30-Day Safety Report by political appointees that 
were presented to the public as peer-reviewed scientific paper.'' (See 
Attachment 7). Therefore, the Executive Summary--not the 30-Day 
Report--was the focus of the OIG investigation.
    When the OIG opened its investigation, I emphasized to 
investigative staff that the scope of the investigation needed to stay 
focused on the Executive Summary to the 30-Day Report, where the 
moratorium recommendation was made--not the moratorium itself, which 
was, at the time, still the subject of litigation, and not the 30-Day 
Report. We assigned a senior special agent to this investigation. He 
was assisted by, and reported to, then-Director of our Program 
Integrity office, who was a seasoned manager and senior special agent. 
I did not have significant personal involvement in the direction of the 
investigation during its course, as I was focused on the efforts of the 
OCS Board, and on the efforts of my staff in Denver, Colorado who were 
conducting a massive evaluation of OCS operations on behalf of the 
Board. (This evaluation served as the basis for the OCS Safety 
Oversight Board Report of September 1, 2010. The OIG continued its 
analysis on several other issues the team had identified, and in 
December 2010, the OIG issued its own, independent report.)
    After conducting interviews of the DOI officials involved in 
drafting the Executive Summary to the 30-Day Report, the OIG 
investigating agents reviewed the final email exchange regarding the 
Executive Summary between DOI and the White House. In the version that 
DOI sent to the White House, the Secretary's recommendation for a six 
month moratorium was discussed on the first page of the Executive 
Summary, while the peer review language was on the second page of the 
Executive Summary, immediately following a summary list of the safety 
recommendations contained in the body of the 30-Day Report. The version 
that the White House returned to DOI had revised and re-ordered the 
language in the Executive Summary, placing the peer review language 
immediately following the moratorium recommendation. This caused the 
distinction between the Secretary's moratorium recommendation--which 
had not been peer reviewed--and the safety recommendations contained in 
the 30-Day Report--which had been peer reviewed--to become effectively 
lost, as detailed in our Report of Investigation (ROI). Although the 
Executive Summary underwent some additional minor editing, it was 
ultimately published on May 27, 2010, with the peer review language 
immediately following the moratorium recommendation, resulting in the 
implication that the moratorium recommendation had been peer reviewed.
    All DOI officials interviewed stated that it was never their 
intention to imply that the moratorium had been peer reviewed by the 
experts, but rather rushed editing of the Executive Summary by DOI and 
the White House resulted in this implication. Since the jurisdiction of 
the OIG does not extend to the White House, we could not compel an 
interview with the White House personnel involved in the editing of the 
Executive Summary. The emails exchanged between DOI and the White House 
did not reveal evidence that the Executive Summary was intentionally 
edited to lead readers to believe that the moratorium recommendation 
had been peer reviewed.
    Although I was not significantly involved during the course of the 
investigation, I was personally briefed by the case agent and the 
Director of Program Integrity on their findings at the end of the 
investigation. At no time during the briefing did either of the agents 
express any concern or disagreement about the way in which the 
investigation had been conducted, or about the conclusion that, while 
the edits made by the White House to the Executive Summary caused the 
perception that the moratorium recommendation had been peer reviewed, 
we did not have evidence that this was done intentionally. At the end 
of this briefing, I asked the case agent to draft an outline for 
approval before he embarked on writing the ROI. Instead, he provided 
both an outline and a draft of the ROI contemporaneously within days of 
the briefing. Initially, I was quietly annoyed, until I read the draft 
ROI, and found that it was very well written by the case agent. This is 
to simply say that I had no hand in the initial drafting of the ROI.
    I was, however, very much involved in reviewing and editing the 
ROI, as I am in all significant reports that issue from our office. As 
is my practice, whenever I make changes to a report (be it an 
investigation, audit, or evaluation), I always check with the report's 
author to ensure that I have not made changes that cannot be supported 
by the evidence or work papers (which support audits and evaluations). 
I did the same in this case, as is evidenced in a series of emails 
between the case agent and me. Again, these emails suggest no 
disagreement with the way in which the investigation was conducted or 
the way the report was written or edited. In fact, the case agent, in 
one email to me, said:

        Mary,

        Thank you for your comments on the ROI and investigation.

        Your email language [about the exchange between DOI and the 
        White House] was far simpler than my own, yet I believe it 
        still clearly captured our finding that DOI's draft Executive 
        Summary had made the distinction between the safety 
        recommendations that were peer reviewed by the experts, and the 
        6-month moratorium recommendation, whereas that distinction was 
        lost in the Executive Summary as a result of the edits made by 
        the White House.

        Obviously, whether that loss of distinction was intentional on 
        the part of an over-zealous White House staffer/editor, or 
        simply an honest oversight, the jury will always remain out. 
        The reader of the ROI will have to make their own speculations 
        on that topic. (Emphasis added.) (Attachment 8)

    In another, the case agent wrote to me, ``Hope the overall ROI/
investigation was up to par,'' to which I replied, ``Other than a few 
editing tweaks and trying to simplify the discussion about the e-mails, 
I thought it very well done, thorough, and to the point.'' (Attachment 
9)
    I was, therefore, taken by complete surprise when we discovered 
emails authored by the case agent criticizing how the investigation was 
conducted, and expressing his opinion that the edits made by the White 
House were, indeed, intentionally made to suggest that the moratorium 
recommendation had been peer reviewed. For example, in an email to an 
OIG colleague, the case agent said:
        Salazar's statement that our ROI concludes it was a mistake and 
        unintentional is a clear attempt to spin our report--I truly 
        believe the editing WAS intentional--by an overzealous staffer 
        at the WH. And if asked, I--as the Case Agent--would be happy 
        to state that opinion to anyone interested. We simply were not 
        allowed to pursue the matter to the WH. But of course that was 
        not mentioned in our report. (Attachment 10)
    To the extent that this claim is intended to suggest that I took 
action to limit the investigation, it is inaccurate. As demonstrated by 
my emails to the case agent's supervisor (Attachments 11 and 12), I was 
awaiting an answer to my inquiry of whether the White House official 
involved in the editing process would be available for an interview or 
not. I did not receive a response. The jurisdiction of the OIG for DOI 
to compel an interview does not extend to the White House.
    If an OIG investigator (or auditor or evaluator) feels that an OIG 
report fails to accurately describe the facts uncovered, I expect that 
employee to bring such concerns to my attention. The case agent in this 
instance had multiple opportunities to do so, when he briefed me, 
personally, on his findings at the end of the investigation, as well as 
during the email exchanges transmitting edits to the ROI. Since I had 
also engaged this case agent in such discussions about previous 
reports, in which he had made his position very clear to me, I am 
simply bewildered by his silence in this case if he had legitimate 
concerns about the investigation or the ROI.
    For example, in an email string between the case agent and me, as 
the final edits to the report were being made, the case agent expressed 
no concerns whatsoever:
From me:  (to Case Agent and supervisor) I am attaching language that I 
        propose to replace the narrative on pp. 8-9 of the draft report 
        [discussing the email exchange]. I hope it simplifies the 
        comparison of the draft Executive Summary that was sent by DOI 
        against the drafts that came back from the White House, but if 
        I have somehow changed the meaning of anything, please let me 
        know.
From me:  (to Case Agent) Did you have any problems with [my edits to] 
        the e-mail language?
To me:    (from Case Agent) Your email language was far simpler than my 
        own, yet I believe it still clearly captured our finding that 
        DOI's draft Executive Summary had made the distinction between 
        the safety recommendations that were peer reviewed by the 
        experts, and the 6-month moratorium recommendation, whereas 
        that distinction was lost in the Executive Summary as a result 
        of the edits made by the White House. (Emphasis added.) (See 
        Attachment 9)
    I invite the Committee to review the edits that I made to the ROI. 
(Attachments 13 and 14--handwritten comments are mine, as is the 
typewritten insert with proposed changes to language about email 
exchange between DOI and White House). Not only do I believe that the 
edits, on their face, made the ROI more objective and easier to read 
and understand, but I made sure the case agent had ample opportunity to 
challenge, object to, or change any edit I proposed before it was 
incorporated into the ROI. The case agent did not challenge, object to, 
or change any edit.
Subpoena
    This Committee has been in discussions with DOI for an extended 
period of time over access to certain documents. Some of the documents 
at issue are those that relate to the communications between senior DOI 
and White House officials regarding the edits made to the Executive 
Summary to the 30-Day Report, which include the email exchanges 
referred to above. When this Committee first requested documents from 
the OIG relating to our investigation, we provided all relevant 
documents except those documents that DOI's Office of Solicitor advised 
may be subject to a claim of executive privilege. I say ``subject to'' 
because, as we learned from the Department of Justice's Office of Legal 
Counsel (OLC), only the President can assert executive privilege.
    We went on to explain that the claim of privilege is DOI's to 
assert (on behalf of the President)--not the OIG's. Therefore, we 
suggested that the Committee attempt to resolve the issue with DOI. We 
also explained that we had a long-standing written policy agreement 
(Attachment 15) with DOI that it would not decline to provide 
privileged documents to the OIG so long as we gave DOI an opportunity 
to claim a cognizable privilege, as it did here. We also explained that 
in the absence of such an agreement, the OIG may face difficulty in 
gaining unfettered access to all documents we request.
    The Committee next attempted to obtain the 13 documents withheld 
through a subpoena issued to DOI. We learned that DOI was in the 
``accommodation'' process with the Committee--an established process 
used in resolving executive privilege issues between the Executive and 
Legislative Branches--when on April 11, 2012 the Committee issued a 
subpoena to the OIG for the very same documents (Attachment 16).
    In our April 18, 2012 response to the Committee (Attachment 17), we 
reiterated our belief that the documents were DOI's to claim or waive 
privilege, not the OIG's, and declined to provide the documents. On 
April 26, 2012, we met with the Chair and Committee staff to again 
explain our position that the OIG could not usurp the President's 
prerogative to assert executive privilege and that the Committee needed 
to pursue the documents through DOI.
Independence and Objectivity of an Acting Inspector General
    As Acting Inspector General, I have asserted all the independence 
and objectivity necessary to meet the OIG mission. I have elected to 
assert this independence and objectivity in a way that maintains a 
healthy tension between the OIG and the Department we oversee. I 
believe, however, that independence and objectivity are not compromised 
by a respectful relationship with both the Department and Congress, the 
two entities we ``generally report to'' pursuant to the IG Act. As a 
result, we have affected a great deal of positive change over the past 
3 years, during my tenure as Acting Inspector General, by working with 
the Department in a spirit of respect to achieve such change.
    As for the question of whether an Acting Inspector General is 
capable of asserting the necessary independence and objectivity, the 
answer is yes. Acting Inspectors General are fully capable of asserting 
the necessary independence and objectivity, as most are long-time 
career civil servants, many having a long history with and 
understanding of their departments and agencies, and have the 
protections afforded all civil servants.
Conclusion
    This Committee has repeatedly said that it has questions about me, 
my independence and objectivity, and my integrity. I hope we can 
adjourn today having addressed all such questions that the Committee 
may have. I have been an attorney and member of the bar, in good 
standing, for nearly 30 years; I have been a public servant for over 26 
years, all but three of those years in the law enforcement arena, 
without blemish on my record; I was born and raised in the Midwest, 
where one's honor and word are sacrosanct. The past 17 weeks have been 
the most painful and difficult of my entire career, not only because of 
the attacks on my personal integrity, but because this has eclipsed all 
the outstanding work that the OIG has done and continues to do.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    The Chairman. Thank you very much for your statement. And, 
as I mentioned earlier, your full statement will appear in the 
record. And I too hope the outcome that you expressed as an 
outcome that we can have with the Members here. But there are 
concerns, as I had mentioned. Let me recognize myself, then, 
first, for 5 minutes.
    You know, Ms. Kendall, that I have significant concerns 
about how the IG's investigation was handled, and about your 
conflicting participation on the OCS Safety Oversight Board. 
The IG was designed to be an independent watchdog. Your 
involvement in the Safety Oversight Board, a policy body, 
changes that role, in my view. In that role, you became an 
appointed policy maker. In this capacity, you repeatedly 
interacted with the political appointees who wrote the report 
and the Executive Summary. You were a first-person witness to 
that process.
    It is very difficult to understand how you cannot see how 
the dual roles are in conflict. You are supposed to be the 
independent and objective investigator. You stated that in your 
statement. But when you are participating in meetings or 
conference calls, and receiving draft documents on these very 
same issues that your office may be asked to investigate--and, 
of course, then did investigate--it is clear your primary 
function was compromised. That you did not see this 
participation is an apparent conflict of interest, or something 
that would raise questions about your independence, it is that 
action or those actions that trouble me the most.
    So, my questions are: Why didn't you decline the 
Administration's request to serve on the Safety Oversight Board 
when it was clear that it would place the integrity and the 
independence of the IG's office into question?
    Ms. Kendall. Mr. Chairman, I recognize the potential for an 
apparent conflict of interest at the outset of my acceptance as 
a member of the Safety Oversight Board. But the Department was 
responding to a crisis. I did not think it appropriate for me 
to say, ``No, you go ahead and deal with this crisis, and I 
will just stand by and critique you if things go wrong.''
    The Chairman. Well, I have a short time here. But by your 
own admission, you were unfamiliar with the details of what 
this oversight--and by your own admission, one of the reasons 
that you wanted to be involved in the whole process was to 
bring yourself up to date. Is that correct?
    Ms. Kendall. I participated in informational meetings to 
bring myself up to date.
    The Chairman. Up to date on issues you didn't really know 
anything about.
    Ms. Kendall. I didn't know anything about them.
    The Chairman. You didn't know anything about it, and yet 
you were accepting a policy position within the Administration.
    Let me ask this----
    Ms. Kendall. I made it clear that I would not participate 
in policy decisions----
    The Chairman. This is a policy board. It was----
    Ms. Kendall. It was not a policy board, sir. It was a board 
asked to bring safety recommendations----
    The Chairman. Right, which is policy. That is policy. That 
is policy.
    Can you provide an example of prior times when IGs have 
participated in policy groups like this?
    Ms. Kendall. I do not have an example on the top of my 
head, but I would like to note that the IG became one of the 
most effective tools the Department had because of my 
participation on this board. In our massive evaluation of the 
Outer Continental Shelf operations, which served as the basis 
of both the OCS board report in September of----
    The Chairman. Right, exactly. That is exactly the point. 
You were working side by side and, in other words, you were 
working on policy.
    Now, since there were some questions raised on the Summary, 
which we asked you to look at, and considering that you worked 
right alongside the people that are being investigated, why 
didn't you recuse yourself after we had asked you, and knowing 
that your participation earlier--why didn't you recuse yourself 
from the Executive Summary, and the editing, and so forth?
    Ms. Kendall. I did not participate in either the 30-Day 
Report or----
    The Chairman. I know you didn't. But you----
    Ms. Kendall [continuing]. The Executive Summary.
    The Chairman. But there were people that were involved with 
that.
    Let me ask this question, then. Did the people that were 
investigating, your IG inspectors, did they know that you had 
participated prior to the Executive Summary, and had 
conversations and documents? Did they know that?
    Ms. Kendall. I don't know that.
    The Chairman. Well, now, you are the----
    Ms. Kendall. Oh, wait. I do know that, sir. I actually had 
an email that I received from the case agent, who said, ``In 
your role as a member of the Safety Oversight Board, if there 
is anything I can do to help, I would like to.''
    The Chairman. Have you provided----
    Ms. Kendall. So he did know.
    The Chairman. Have you provided that to the Committee?
    Ms. Kendall. I would think so.
    The Chairman. But you don't know?
    Ms. Kendall. I don't know.
    The Chairman. All right. My time is running out here. But 
it appears there is inherent conflict when the role of the IG 
is expanded to a political policy appointee, which--I think 
that has happened.
    Congress, I believe, demands that the IG be independent 
watchdogs of the administration. That is the intent of the law. 
But I think that just clearly, this sort of give-and-take we 
had, to me, raises more questions.
    But my time has clearly expired. So I will recognize the 
gentleman from Massachusetts.
    Mr. Markey. Thank you, Mr. Chairman. Ms. Kendall, this 
Committee voted yesterday to subpoena five Interior Department 
officials. Your office interviewed two of these officials as 
part of your investigation: Steve Black and Neal Kemkar. Do you 
have any evidence that Mr. Black or Mr. Kemkar were being 
untruthful when they told your office that there was no 
intention to mislead in the editing of the report?
    Ms. Kendall. No, we do not.
    Mr. Markey. The remaining three individuals this Committee 
voted to subpoena are Mary Katherine Ishee, Walter Cruickshank, 
and Kallie Hanley. Is there any reason to believe that any one 
of these people has important information related to this 
investigation?
    Ms. Kendall. I have no information to believe that they 
were involved in either the 30-Day Report or the Executive 
Summary.
    Mr. Markey. The core function of IGs is to improve the 
effectiveness and efficiency of Department programs, and to 
uncover fraud, waste, and abuse. In many ways, IGs look out for 
the taxpayer, to make sure they get their money's worth from 
the Federal Government.
    How much of your office's time and resources have been 
consumed responding to the Majority's investigation of this one 
issue?
    Ms. Kendall. I have not calculated that amount, but it has 
been significant.
    Mr. Markey. Have the Committee's multiple and extensive 
document requests taken you and other senior staff away from 
your core work?
    Ms. Kendall. I would say yes.
    Mr. Markey. Ms. Kendall, your office recently provided the 
Committee a list of many important jobs that are either ongoing 
or that have been completed over the last 3\1/2\ years. You are 
conducting several ongoing investigations related to the BP 
spill, including one with the Department of Justice. And you 
have already completed five investigations related to the BP 
spill, including cases labeled ``Halliburton,'' and ``BP 
Scam,'' ``Testing, A Blow-Out Preventer,'' and ``BP Safety 
Failures and Policies.'' Can you tell the Committee about your 
investigations into the Deepwater Horizon spill, and what you 
have found?
    Ms. Kendall. The criminal investigation continues to be 
ongoing, so I cannot comment on that. We have also----
    Mr. Markey. Did you say ``criminal''?
    Ms. Kendall. Criminal.
    Mr. Markey. Criminal.
    Ms. Kendall. Yes. That is the investigation being conducted 
with the Department of Justice. We also conducted an 
investigation with the Department of Justice on the civil side. 
The three that you mentioned are not familiar to me. I am not 
sure that those are ones that came from our office. But they 
sound like some that have been conducted by some other 
agencies.
    Mr. Markey. Could you expand a little bit on what this 
criminal investigation is looking at?
    Ms. Kendall. I really can't, because it is ongoing. But I 
am hopeful that it will come to fruition in the fairly near 
future.
    Mr. Markey. You served on the Outer Continental Shelf 
Safety Oversight Board. Can you describe the situation when you 
joined that board?
    Ms. Kendall. The board was tasked with, basically, 
overseeing the investigation into the Deepwater Horizon event, 
and to provide the Secretary with safety recommendations to 
improve the Outer Continental Shelf operations and oversight by 
the Department.
    Mr. Markey. So can you describe your role and the role of 
the Office of Inspector General in carrying out the mission of 
the board?
    Ms. Kendall. I offered and then tasked my entire central 
region to conduct a comprehensive review of the Outer 
Continental Shelf operations that are overseen by the 
Department of the Interior. Some 60 people spent 3 months--a 
very, very short timeframe--to conduct this comprehensive 
review. And they provided findings and recommendations, as we 
do as an OIG, to the Safety Oversight Board, which adopted them 
for themselves to issue their September report. And then the 
OIG issued an almost exact--but a little more detailed--report 
of its own in December of 2010.
    Mr. Markey. Thank you. Now, in this role, were you in any 
way involved in the drafting or editing of the 30-Day Report or 
the Executive Summary?
    Ms. Kendall. I was not.
    Mr. Markey. OK. Do you think your independence was in any 
way compromised with respect to your subsequent work looking 
into the editing of the Executive Summary?
    Ms. Kendall. I do not.
    Mr. Markey. Well, we thank you. And we thank you for your 
work. You know, your comments about the ongoing criminal 
investigation, you know, involving all of those companies--and 
we saw the pictures of what they did in this crime against the 
environment, the greatest in the history of our country--that 
is where the work should be of this Committee.
    We should find out who did it. We should have them sitting 
here under oath, the CEOs of each of those companies. That has 
not happened in a year and a half. And we are waiting for that, 
and the American people are waiting for this Committee to do 
their job. Thank you, Mr. Chairman.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Colorado, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Ms. Kendall, I want 
to take us back to a June 17, 2010 Subcommittee oversight 
hearing in this room that we had. I asked you if the Office of 
Inspector General was investigating the circumstances 
surrounding the editing of the drilling moratorium report. You 
said no, and went on to add that you were not involved in 
developing the report.
    I would like to show a video clip. Could you please show 
exhibit six? Number six.
    [Video shown.]
    Mr. Lamborn. So, I think you would agree an Inspector 
General needs to avoid even the appearance of a conflict of 
interest.
    Since that hearing there have been significant questions 
raised about whether you crossed that line. And, in turn, 
whether your June 2010 statement might have been misleading. 
For example, a number of emails and calendar entries have come 
to light showing that you had access to drafts of the drilling 
moratorium report in the days before it was finalized. You also 
attended meetings with both the peer reviewers and the same 
senior department officials who were later subject of the IG's 
investigation.
    But only 3 weeks after the report was issued, you said here 
in that clip we just saw that you were not involved in the 
process of developing the report. After these questions were 
first raised in May of this year, you wrote to the Committee to 
say that you did attend a number of these meetings in order to 
learn about offshore drilling and your role as a member of the 
Secretary's OCS Safety Oversight Board, and that ``in none of 
these information gathering meetings that I attended was the 
substance of the 30-Day Report discussed.''
    So, I am curious. What happened in these meetings? For 
example, there was a meeting on May 17th of that year that you 
were invited to with Steve Black, Counselor to the Secretary 
and lead author of the report. One of the people who is part of 
this investigation.
    Could you show exhibit seven, please?
    [Slide shown.]
    Mr. Lamborn. So, on the agenda you will see in the red box 
to the right, ``Walk-Through Document to be Reviewed,'' and 
also ``Discussion on Document.'' And then there is a follow-up 
email from Mr. Black to you and others sending a draft of the 
report's recommendations and asking for comments and suggested 
changes ``based on your own work to date and today's 
conversation.''
    Exhibit eight, please.
    [Slide shown.]
    Mr. Lamborn. And then, ``Thank you for participating on the 
call today with the NAE-identified experts. I would be grateful 
for your comments and any suggested changes by close of 
business tomorrow, based on your own work to date and today's 
conversations.''
    And then, last, there is another email from Mr. Black to 
you where he thanks you for your participation.
    Exhibit nine, please.
    [Slide shown.]
    Mr. Lamborn. ``And thank you for your kind words, Mary, and 
for your participation in so many of the meetings and 
interviews leading up to this report. Your effort has been 
enormously impressive, by the way.''
    OK. My questions. Do you still stand by your June 2010 
testimony that you were not involved in the process of 
developing the drilling moratorium report?
    Ms. Kendall. I do.
    Mr. Lamborn. And would you agree that an Inspector General 
needs to avoid any--this is just a rhetorical question--any 
appearance or actual conflict of interest and lack of 
independence?
    Ms. Kendall. I do.
    Mr. Lamborn. OK. Considering your significant role in 
working closely with members of the Safety Oversight Board, do 
you think you should have recused yourself from investigating 
the moratorium and the editing of the report to avoid any 
suggestion that the investigation was compromised?
    Ms. Kendall. To this day I do not.
    Mr. Lamborn. When you testified before the Committee that 
you were not involved in the ``process of developing the 
report,'' do you believe that the process of developing that 
report includes meeting with the peer reviewers, which you had 
done before your testimony?
    Ms. Kendall. I attended that meeting for informational 
purposes, as I did with very many others, where I learned about 
deepwater drilling, blow-out preventers, drilling margins, 
drilling mud, pressure testing, negative pressure testing, 
complexities in orchestrating rigs worldwide. These were the 
things that I attended these meetings for. I did not 
participate in developing the 30-Day Report or the Executive 
Summary.
    Mr. Lamborn. Well, I would have done it differently. I 
would have met with experts who were not subject to the 
investigation and gotten briefed by them on the technical 
issues.
    Finally, do you see how people can raise questions that you 
have been too close to the Department to be objective, and that 
you were actually able to aggressively investigate the 
moratorium decision and editing?
    Ms. Kendall. In the context of the crisis in which the 
Department was responding at the time, I do not.
    Mr. Lamborn. Thank you.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from New Jersey, Mr. Holt.
    Dr. Holt. Thank you. Well, evidently, the Majority here 
does not--did not--like the conclusions of the report. And so 
they turned this into an investigation with a number of 
subpoenas, and now the testimony of the Acting Inspector 
General.
    As I said here yesterday, it is ludicrous. It must look 
really silly to people outside looking at this. So, here we are 
spending Committee time subpoenaing people, calling them in 
because, in the preliminary edition of the report the word 
``pause'' was used. And in the final report a more official 
sounding word, ``moratorium,'' was used.
    You know, yesterday I went through, at great length, the 
various synonyms for moratorium, which would include ``pause''. 
I don't see anything nefarious here. It is simply that the 
Majority did not like the conclusion, and they want to 
discredit the report and, unfortunately, try to discredit some 
hard-working, contentious, altruistic public servants. And I 
am--I thank you for coming, Ms. Kendall, I am sorry that you 
have to go through this.
    Let me run through a few questions. When the case agent 
finished a draft of the report, you reviewed that and with an 
eye toward editing it. Is that correct?
    Ms. Kendall. I edit almost every report that leaves our 
office.
    Dr. Holt. And so this was standard, as you always do?
    Ms. Kendall. Absolutely.
    Dr. Holt. And after you finished editing, you sent your 
revisions back to the case agent and ask him if he had any 
issues with your changes. He responded, ``Your email language 
about the exchange between the Department of the Interior and 
the White House was far simpler than my own. Yet I believe it 
clearly captured our finding.'' Is that correct?
    Ms. Kendall. That is correct.
    Dr. Holt. If the case agent had concerns, he didn't 
communicate them to you at that time, which was the obvious 
opportunity for him to do that.
    Ms. Kendall. The case agent never communicated any concerns 
during the course of the investigation. And I met with him at 
the very end to talk about his findings. He did not express any 
concerns at that time.
    Dr. Holt. OK. There is now a discussion by my colleagues 
and others about whether the editing was intentional by an 
overzealous White House staffer. Do you think that there is 
evidence to be gained if we conduct a more thorough 
investigation? Is there more to be brought to light, or do you 
think that all the facts that are out there have been 
considered in your investigation?
    Ms. Kendall. We received and reviewed the email exchange in 
which the editing was done where the moratorium appeared to 
have been peer reviewed. We reviewed those. They did not 
indicate anything that it was intentional. The case agent has 
an opinion, apparently now, that it was. The evidence did not 
show that.
    Dr. Holt. And the case agent has actually stated that he 
has an opinion, and that----
    Ms. Kendall. Well, he has stated his opinion.
    Dr. Holt. Yes, and that he calls his position an opinion. 
Is that right?
    Ms. Kendall. I don't know that he calls it an opinion.
    Dr. Holt. OK.
    Ms. Kendall. He states it. It is an opinion, however.
    Dr. Holt. Again, a few more questions. Did you interfere 
with the work of the case agent?
    Ms. Kendall. I did not.
    Dr. Holt. Was the investigation, in your opinion, thorough?
    Ms. Kendall. It was.
    Dr. Holt. Did you find any evidence of wrongdoing?
    Ms. Kendall. We found no evidence that the changes to the 
Executive Summary to make it look like it was peer-reviewed, 
the moratorium was peer-reviewed, was intentional.
    Dr. Holt. And in the preparation of your report, were you 
pressured, asked, directed, in any way influenced to go easy on 
the Administration?
    Ms. Kendall. I had no conversations with the Department 
about the report until it was issued. I mean, I let them know 
that we were doing it, but I did not talk to the Department 
about the report itself until it was issued.
    Dr. Holt. In your 26 years as a public servant, is this the 
first time anyone has questioned your impartiality or 
professionalism or completeness?
    Ms. Kendall. Yes.
    Dr. Holt. Well, I wish I had a little more time now to let 
you say what I think you are entitled to say about these 
allegations that your work is not reliable or without 
integrity. I hope this Committee will give you a full 
opportunity to address these allegations. And I thank you for 
your work. And I yield back my time.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. We have had the 
question asked a couple of times. Why are we here? So that my 
colleagues will understand why we were here, and so they 
understand from somebody that went down all around the coast 
area after this disaster, the biggest disaster to the coastal 
area came not from the oil that was escaping, it came from the 
order of this President to have a moratorium on shallow-water 
drilling that put thousands and thousands of people out of 
work, put thousands and thousands of people into poverty, put 
thousands and thousands of people into needy situations because 
this President acted on the recommendations of experts who did 
not make those recommendations.
    So I think it is critically important that we find out more 
about the process. And I appreciate the Inspector General's 
position that it is sufficient to ask individuals if they were 
involved or if there was a problem. And I think it would come 
as great news and comfort to investigators all over the 
country, including the criminal investigators that we have been 
told are moving forward, if they knew that all they had to do 
is not gather evidence, not look at hard drives, as people were 
directed not to do in this case, as we see from the emails, and 
as they were directed not to review emails of people who were 
involved.
    And, as we see from the email by Richard Larrabee, where he 
says in a letter, actually, ``As you know, I was directed to 
not ask for Secretary Counselor Steve Black's emails that 
contained the actual drafts sent to and returned by the White 
House, even though he told us he had them if we wanted them.''
    So, let me ask you. Who directed Richard Larrabee not to 
request those emails, and not to review hard drives?
    Ms. Kendall. I don't know. But----
    Mr. Gohmert. Did you investigate who might have directed 
him not to acquire those emails? Wouldn't that have been 
important from Inspector General's standpoint?
    Ms. Kendall. He did receive the emails. These are the 
emails----
    Mr. Gohmert. The question was who directed him not to?
    Ms. Kendall. Sir, I don't know that.
    Mr. Gohmert. So would it be important to know why Richard 
Larrabee was lying, if he received emails and he said he was 
not? Would that cause you concerns with his inconsistency?
    Ms. Kendall. If I may, at Steve Black's first interview 
with the case agent, he offered the emails to the case agent.
    Mr. Gohmert. He points that out. Ma'am, I have covered 
that. I am asking you who directed him--he points out that he 
was told by Black that he could have them, and then he was 
directed by somebody not to get the emails. Who directed that?
    Ms. Kendall. He chose not to accept them at the time.
    Mr. Gohmert. So he lied when he said he was directed not to 
ask for them. Wouldn't that be worth investigating, why you are 
saying Richard Larrabee lied in this letter that he wrote, and 
said--where he said, ``I was directed not to ask for them''?
    Ms. Kendall. I would be interested in knowing who he said--
--
    Mr. Gohmert. Well, don't you have the authority to ask that 
question?
    Ms. Kendall. Sir, I have not done anything to put this case 
agent in jeopardy, because he is, as the----
    Mr. Gohmert. Ma'am, I would submit to you that you have 
done nothing to put anybody in jeopardy. And your job is to 
investigate the facts. And if somebody is worthy of being put 
in jeopardy, you do so.
    Ma'am, I heard you say that you could not--in fact, you 
said, ``Gee, I recognized my potential for a conflict of 
interest, but we were in a crisis and I could not sit by and do 
nothing.'' So that tells us you did participate. You couldn't 
sit by and do nothing. Whereas, ma'am, I would tell you that, 
as a judge and chief justice, there were times I saw lawyers 
not doing an effective job, or an investigator not doing what 
he should have. But I knew I could not compromise my position, 
because it was too important. So I didn't jump in and do those 
jobs.
    That is what an Inspector General is supposed to do, make 
sure--as you said, I recognize my potential for a conflict of 
interest. And you should have protected that. And so, as a 
result, we have a report that cost thousands and thousands of 
people more misery than the oil that was coming out of the 
floor did. We can't even find most of that now. And I would 
submit to you that you should first do no harm, and you could 
have avoided the harm if you had helped us get to the truth. 
You complained about how long this had gone on. I would submit 
to you if you are consistent, it doesn't go on long at all. I 
yield back.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Georgia, Mr. Broun.
    Dr. Broun. Thank you, Mr. Chairman. In March 2009, 
President Obama issued a memorandum expressing how important it 
was for the public to be able to trust science upon which 
policy decisions were being made, and that political appointees 
should not suppress or alter scientific or technological 
findings or conclusions.
    I am very troubled that the moratorium decision was imposed 
without any scientific support, and that political officials at 
the Department or the White House altered the 30-Day Report to 
incorrectly suggest that peer reviewers had endorsed the 
moratorium when they scientifically did not, all to the 
contrary of the Obama Administration's own scientific integrity 
policies.
    The IG's office aggressively investigated scientific 
integrity violations of the past Administration, but seems to 
have been less aggressive in pursuing this investigation.
    So, do you agree that it is inappropriate for political 
appointees to alter or suppress scientific findings or 
conclusions?
    Ms. Kendall. I do.
    Dr. Broun. Are there ever any situations where it would be 
appropriate for a political appointee to alter technical or 
scientific information?
    Ms. Kendall. I can't think of any.
    Dr. Broun. Ms. Kendall, it has happened. This 
Administration's transparency seems to be another word. Their 
transparency is opaque.
    Ms. Kendall, part of the purpose of this hearing is to get 
a better understanding of how the Office of Inspector General 
has operated in the past 3\1/2\ years with an Acting Inspector 
General. One topic I would like to discuss is the role that the 
IG plays in investigating ethics complaints. The IG's office 
conducted a number of ethics investigations of officials in the 
previous Administration, including a former Secretary and a 
Deputy Secretary. And I would hope your office is pursuing 
ethics complaints against officials in the current 
Administration just as aggressively.
    As I understand it, the Department's ethics program 
provides ethics advice and tracks conflicts of interest in 
financial disclosures for Department officials. But your office 
is the one that handles investigations into whether Department 
officials have violated the ethics laws. This is one area where 
I could see the importance of a strong working relationship 
between the Department and the IG.
    Does your office get referrals from the Department's Office 
of Ethics Programs for further investigations?
    Ms. Kendall. We do.
    Dr. Broun. When a complaint is received, what is the 
process for investigating an ethics complaint? Is it the same 
as other criminal or program integrity investigation, meaning 
you review the complaint and decide whether an investigation 
should be opened?
    Ms. Kendall. Yes.
    Dr. Broun. What is the process?
    Ms. Kendall. The process differs almost every case. But we 
will review the allegations and determine whether or not it is 
something that falls within the scope of what we have defined 
as the high-impact, high-risk cases. And if it does, we will 
accept it for investigation. Most ethics cases do fall within 
that.
    Dr. Broun. Maybe you can let me know how you make those 
decisions about which do and do not. But how many ethics 
complaints does the IG receive in a given year for 
investigation? And how many of these comments/referrals are 
from the Department's ethics programs, compared to hotline, 
whistleblower complaints, or directly to the IG?
    Ms. Kendall. I don't have that answer. I could get it to 
you.
    Dr. Broun. Oh, I would appreciate that. How often are these 
cases referred to the Department of Justice for criminal 
prosecution? And have you made any referrals at all within the 
past 3\1/2\ years?
    Ms. Kendall. To the Department of Justice for prosecution?
    Dr. Broun. Correct.
    Ms. Kendall. Not that I am aware of, no.
    Dr. Broun. How often are these cases referred?
    Ms. Kendall. Quite rarely. And they are even more rarely 
prosecuted.
    Dr. Broun. How about in the previous Administration? How 
many were referred to the Department of Justice?
    Ms. Kendall. I would have to get back to you on that, too. 
I don't----
    Dr. Broun. I appreciate that. But you have made absolutely 
zero referrals in the last 3 years. Is that correct?
    Ms. Kendall. I think that is correct, but I would like to 
be able to confirm that with----
    Dr. Broun. OK. And how come you haven't referred any? Are 
there no ethics violations in this Administration at all?
    Ms. Kendall. We have had several ethics cases that we have 
investigated. And, actually, as I am thinking about it, most of 
the time we will refer them, usually expecting declination. So 
we may have referred some of those. I would have to get back to 
you.
    Dr. Broun. Well, please do. My time is running out. But if 
you can follow up and provide this Committee with a list of 
complaints of the ethics violations that have been--well, you 
haven't referred any, but have been referred to you or 
otherwise been received by your office in the past 3 years, as 
well as the status of any investigation of any complaint or 
referral, and would you do that for us?
    Ms. Kendall. We can do that.
    Dr. Broun. Can you do that within the next 2 week period of 
time?
    Ms. Kendall. Next 2 weeks?
    Dr. Broun. Two weeks. Yes, ma'am.
    Ms. Kendall. I think we can.
    Dr. Broun. Thank you.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Louisiana, Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman. Ms. Kendall, the 
underlying question here is this 30-Day Report, and whether or 
not the text was manipulated to show something that really 
didn't exist, which is that this blue ribbon panel, peer 
reviewed, as though to make it appear as though they agreed 
that there should be a moratorium.
    Now, it lacks credibility right on the face of it to 
believe that that wasn't deliberately done. And the reason why 
is because, after this came out, the President still went on 
and issued a moratorium. And then, beyond that, it got into 
court. The President failed in court. And then, once the 
moratoria ended, the moratorium period ended, then we had a 
period of what we call permatoriums, slowatoriums, foot 
dragging, and even today we have seen tens of thousands of jobs 
lost, rigs that have gone elsewhere, and I would argue have 
been at more risk, environmentally, because they are going to 
countries that don't have the level of regulations and 
oversight that we do.
    But I agree with Mr. Gohmert. The real damage here has been 
done by the Administration itself to prevent people from 
maintaining, keeping, and acquiring good jobs. And we have lost 
that, in many cases, forever.
    My question for you is you are Acting Inspector General, as 
I understand it, is that correct?
    Ms. Kendall. That is correct.
    Dr. Fleming. Do you wish to actually be an appointee of the 
Administration in this position?
    Ms. Kendall. I have expressed an interest, yes.
    Dr. Fleming. OK. So, in effect, you have the role of 
investigating, potentially, this same Administration that would 
be potentially selecting you for the job. Is that correct?
    Ms. Kendall. Essentially, yes.
    Dr. Fleming. OK. Then have you not been really in an 
auditioning kind of position to audition for the 
Administration? And would that not be a conflict of interest?
    Ms. Kendall. I have an interest in being nominated and 
confirmed, but I want to do this for the OIG, as an 
organization, certainly not because I am having a really great 
time----
    Dr. Fleming. But it wouldn't make sense to make the 
President mad at you. Is that correct?
    Ms. Kendall. You know, there is a potential for conflict of 
interest, perhaps, here. But I have seen many of my colleagues 
rise from the Deputy IG to the position of IG without conflict. 
And, in fact----
    Dr. Fleming. But not under this President. Now----
    Ms. Kendall. Under this President, as well, yes.
    Dr. Fleming. Oh. Can you give me an example?
    Ms. Kendall. I would say the Department of--well, he went 
to a different agency, but----
    Dr. Fleming. Right.
    Ms. Kendall [continuing]. Department of Justice Deputy IG 
who is now----
    Dr. Fleming. And do they come out--did this person, before 
being promoted or transferred, did this person come out with 
some negative finding, or investigate the Administration with 
an adverse finding?
    Ms. Kendall. I am guessing yes.
    Dr. Fleming. You are guessing yes?
    Ms. Kendall. I don't----
    Dr. Fleming. Yes. It sounds like pure speculation. So I 
will accept that, no, we don't have a good example of that 
occurring at all.
    Also, wouldn't it make sense that, since you were coopted 
to be in the policy arm of this, and really disengaged from the 
investigation, that really you are part of the policy--from the 
get-go what we have learned, in fact, a lot of the facts that 
we have come out with now shows that the lead investigator was 
the one who had the concern, although we didn't know about this 
until we uncovered emails. And so----
    Ms. Kendall. And neither did I.
    Dr. Fleming. OK. So it sounds--it really appears in your 
testimony and the documentation that we have is that while you 
were engaged in the policy side of things, that the lead 
investigator below you was not in good communication with you, 
and certainly not plugged in. You even admit that you didn't 
know about that.
    And so it, again, leads to the question. How in the world 
can you claim to be disinterested and objective, and 
potentially one who could bring out the negative activities, 
the improper activities of the Administration, which I think is 
clear here, with this 30-Day Report? How can you claim to be 
objective, when, at the very least, you were a part of the 
policy process?
    Ms. Kendall. I was not a part of the policy process. I was 
a part of the process of reviewing Outer Continental Shelf 
operations for safety and operational improvements.
    Dr. Fleming. But is that really your job? Your job is to 
investigate wrongdoing from the Department of the Interior. Is 
it not?
    Ms. Kendall. My job is also, in part, to improve the 
operations----
    Dr. Fleming. But primarily your job is to investigate any 
fraud, waste, and abuse--any kind of legal problems that may be 
going on. And you have got investigators that are really not in 
good communication with you on that.
    Ms. Kendall. And to improve the operations of the 
Department of the Interior.
    Dr. Fleming. Yes. I would say that answer is 
unsatisfactory. Thank you, Mr. Chairman.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from California, Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman. Ms. Kendall, I 
would like to focus on the Klamath Basin studies. According to 
your letter to the Chairman of July 20th, you state, ``Given 
the comprehensiveness of the governing agreements, the 
transparency being given to the process, and the complete 
absence to date of any complaints about the manner in which 
this effort is proceeding, the OIG does not have any plans to 
conduct any additional reviews at this time.'' Is that correct?
    Ms. Kendall. That is correct.
    Mr. McClintock. That there has been a complete absence to 
date of any complaints about the manner in which the Klamath 
Basin studies are proceeding?
    Ms. Kendall. We have not received any.
    Mr. McClintock. Ms. Kendall, on February 24th, an 11-page 
complaint was filed with the Office of the Executive 
Secretariat in Regulatory Affairs of the Department of the 
Interior. It documented allegations of systematic, scientific, 
and scholarly misconduct relating to the Klamath River Dam 
removal secretarial determination process.
    And it wasn't filed by some gadfly; it was filed by Dr. 
Paul Houser of George Mason University, who was, at the time, 
the Bureau of Reclamations Science Advisor and Science 
Integrity Officer. Specifically, he documented the intentional 
falsification of scientific results contained in the September 
21, 2011 summary of key conclusions of the draft EIS/EIR and 
related scientific and technical reports, and intentional 
circumvention of the policy that ensures the integrity of 
science and scholarship and actions that compromise scientific 
and scholarly integrity.
    Now, given the well-documented complaint of political 
tampering with scientific data made by the official directly 
responsible for overseeing the scientific integrity of these 
studies, your statement that there has been a ``complete 
absence of any complaints about the manner in which the Klamath 
Basin study is proceeding'' is absolutely stunning.
    So, I would ask you again. Have there been, in your words, 
``a complete absence to date of any complaints about the manner 
in which the Klamath Basin studies are proceeding?''
    Ms. Kendall. Perhaps I needed to be more complete to the 
Inspector General's office. If that complaint was referred to 
our office, I was not aware of it.
    Mr. McClintock. Well, wouldn't that be of prime interest to 
the Inspector General's office?
    Any reasonably competent Inspector General, wouldn't they 
be somewhat concerned of such allegations by an official 
responsible for protecting the scientific integrity of these 
studies?
    Ms. Kendall. Yes, sir.
    Mr. McClintock. Mr. Chairman, I would ask unanimous consent 
to insert in the record the Inspector General's letter to you 
of July 20th, and the complaint filed by Dr. Houser of February 
24th.
    The Chairman. It will appear in the record, without 
objection.
    [The letter from the Inspector General to the Chairman 
dated July 20, 2012.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Mr. McClintock. Ms. Kendall, has the Department of the 
Interior received any complaints by that former official or 
others alleging scientific integrity violations concerning 
removal of the dams?
    Ms. Kendall. I would not know what the Department has 
received, necessarily. Usually things are referred to us. I 
would have to go back and check.
    Mr. McClintock. One of the concerns that has been expressed 
here at this hearing and elsewhere, Ms. Kendall, is a complete 
lack of focus on the principle responsibilities of the 
Inspector General.
    This report, these allegations of falsification of 
scientific data were not exactly a secret. They were widely 
reported in newspaper articles across the Pacific Northwest.
    Mr. Chairman, I would also ask unanimous consent to insert 
in the record articles on this subject from the Redding Record 
Searchlight, the Capital Press, and the Daily Caller.
    The Chairman. Without objection, they will appear in the 
record.
    [The newspaper articles submitted by Mr. McClintock for the 
record follow:]
Capital Press--California
The West's Ag Website
Dam removal ``extreme,'' says fired scientist
Updated: Thursday, June 07, 2012 10:30 AM
Whistleblower says reports downplayed criticism of Klamath dam removal 
        option
By TIM HEARDEN
    YREKA, Calif.--The former U.S. Bureau of Reclamation senior science 
adviser who claims he was fired in February for speaking out about the 
Klamath River dam removal process said removing the dams should be an 
``extreme'' last resort.
    Paul Houser told about 200 people here May 7 that removing the four 
dams from the river is ``an uncontrolled experiment'' with impacts such 
as poor water quality that could have dire consequences for fisheries.
    He said much further study is needed of alternatives such as fish 
passage, adding that scientists should truck in fish above the dams to 
see if they can find suitable habitat.
    ``We don't know what would happen if we did nothing, so for me, 
taking the dams out is the most extreme option.'' said Houser, 41, a 
George Mason University professor and former National Aeronautics and 
Space Administration scientist who was hired last year to oversee the 
Klamath scientific studies.
    ``For me as a scientist, I'd like to know more about those less 
extreme options,'' he said.
    Houser filed federal whistleblower and scientific-integrity 
complaints after he says superiors told him his ``skills weren't a 
match for the position'' and terminated him, he said in an interview.
    He alleges officials wrote a summary and news release to elicit 
support for dam removal while downplaying negative remarks from 
scientists that were in the full reports. He said superiors told him to 
be quiet about his concerns, then he faced increasing scrutiny on his 
job.
    Interior spokeswoman Kate Kelly said Houser's complaints are still 
being reviewed. The Department of the Interior ``has established a 
rigorous and transparent scientific process that is ongoing and will 
inform the decision about potential removal of the four Klamath River 
dams,'' she said in an email May 8.
    Work has been proceeding on a final environmental document that 
will choose a ``preferred alternative'' among five options, which range 
from doing nothing to fully dismantling the four dams in Southern 
Oregon and Northern California.
    Other alternatives being considered include partial removal of the 
dams while keeping some structures behind, removing only two of the 
four dams, and installing fish passages around the dams. U.S. Fish and 
Wildlife Service spokesman Matthew Baun has said.
    Houser said in his speech that it appears top Interior officials 
have already decided they want the dams out and are seeking the science 
to back up their decision.
    ``Scientists often do their work based on who they're paid by.'' he 
said, adding that they stop short of examining all available options. 
``That happens all the time in science...and you don't get the unbiased 
science you need.''
    Houser's speech came during a three-day swing through the region, 
where he also was slated to address the Siskiyou County Board of 
Supervisors on May 8 and a tea parts' meeting later in the evening.
    In speaking out. Houser has become a darling of dam-removal 
opponents and tea party activists, many of whom attended his speech. 
His appearance was sponsored by the Bi-State Alliance, a recently 
formed group fighting for water rights issues.
    Hearing Houser's story provides ``an assurance that there are 
honest people in this world and honest people in government.'' said Leo 
Bergeron of Montague. Calif., one of the organizers. ``We've been 
dealing with liars and thieves.''
    Houser acknowledged in the interview he is concerned that his 
message may be co-opted by people with political agendas, but he was 
willing to speak to anyone who would listen. He said he did not 
initially intend to go public but that others, including Siskiyou 
County officials, forwarded his complaint letter to the media.
    ``I wanted to make sure that by moving forward on this that I 
wasn't doing it as a benefit to me.'' he told the audience. ``A lot of 
scientists in government are doing good work and are afraid to come 
forward with these kinds of reports because the same thing would happen 
with them that did with me.''
                                 ______
                                 
THE DAILY CALLER
Former Interior Dept. adviser: Administration's report on dam removal 
        ``intentionally biased''
By Alexandra Myers--The Daily Caller 11:40 PM 04/05/2012
    A former science adviser to the Department of the Interior's Bureau 
of Reclamation was fired in February, shortly after he alleged that the 
Obama administration intentionally falsified scientific fact in a 
proposal for dam removal in the Klamath River.
    Professor Paul Houser of George Mason University, in a written Feb. 
24 allegation to the Office of the Executive Secretariat and Regulatory 
Affairs in the Department of the Interior, said that Sec. Ken Salazar's 
determination to remove the dams resulted in ``intentional biased 
(falsification) reporting of scientific results.''
    He also alleged that when he voiced his concern about the 
scientific integrity of the Department of the Interior's decision-
making process, ``[m]y disclosure was never directly addressed.''
    And, Houser added, ``I faced systematic reprisal.'' He was later 
terminated from his government job.
    Interior seems poised to go ahead with the project because there is 
a possibility it will bring salmon back to the basin. But the loss of 
low-cost hydroelectricity and water for irrigation, and the effect 
demolishing dams would have on human life, are factors Houser believes 
haven't been addressed.
    The Interior completed an environmental impact review, but he said 
the result of the report was organized in a way that obscures the 
truth.
    While the Interior said that there would be an 81.4 percent Chinook 
salmon recovery if dams were removed, it did not acknowledge that there 
are nine factors that could wipe out that recovery even if the dams 
were removed.
    In his allegation, Houser cited a June 2011 report, in which the 
Klamath River Expert Panel--one of the Interior Department's own 
scientific advisory groups--concluded that water issues in the lake, 
reduction in disease and climate change, among other factors, would 
erase any gains in the fish population.
    In January, four months after publishing the environmental impact 
statement Houser said was falsified, the Interior published a new 
report about the effects of removing the dams.
    That report estimated a net gain of 1,400 jobs and $60 million in 
annual income for workers.
    Along with helping the salmon, though, the report acknowledged that 
the move would pose a threat to other aquatic species and fisheries as 
sediment runs downstream with the rushing water.
    There are also risks of short-term flooding to cultural and 
historic resources in the area.
    And still, the question remains whether the removal of the dams 
will impact salmon recovery at all.
    ``There are no guarantees that removal of dams will solve disease 
problems,'' Oregon State microbiology professor Jerri Bartholomew told 
The Daily Caller, ``but returning the river to a more natural system is 
expected to bring it into better balance.''
    If Secretary Salazar decides to remove the dams, it would occur 
over a one-year period and would begin no later than January 2020. In 
order for the process to begin, the governors of California and Oregon 
must agree with the decision.
    Kate Kelly, the Interior Department's deputy communications 
director, told TheDC that the agency would not discuss personnel 
matters. She did say, however, that Houser's allegation ``is being 
reviewed under the standard procedures contained in Interior's 
scientific integrity policy.''
    Kelly said the Department of the Interior examined 50 different 
scientific reports to determine the economic and environmental impacts 
the dam's removal would have on the surrounding areas.
    ``The science is high quality, technically reviewed,''' Kelly said.
    This story was updated after publication to clarify Houser's 
comments about his belief that the Dept. of Interior never acted on his 
complaints, and to reflect that the agency s apparent future plans have 
not yet drawn direct comment from Secretary Salazar.
    Follow Alexandra on Twitter
    Article printed from The Daily Caller: http://dailycaller.com
    URL to article: http://dailycaner.com/2012/04/05/former-interior-
dept-adviser-administrations-report-on-dam-removal-intentionally-
biased/
                                 ______
                                 
redding.com
``Whistleblower'' will speak about Klamath dam removals; scientist's 
        advice opposed their removal
By Alayna Shulman
Friday, May 4, 2012

    A federal agency's former scientific integrity adviser who filed a 
whistle-blower complaint in February, saying he was fired for his 
findings on a controversial proposal to remove dams in Siskiyou County, 
will speak at a meeting Monday in Yreka.
    Paul R. Houser will address his complaint at the meeting of the 
Cal-Ore Bi-State Alliance at 6:30 p.m. in the Flower Building of the 
Siskiyou County fairgrounds, 1712 Fairlane Road.
    Houser filed the complaint with the Department of the Interior in 
late February.
    This week, Houser, who lives in Maryland and teaches at George 
Mason University in Virginia, said the chance of his case succeeding 
seems slim, but he's not giving up hope that his complaint will be 
acknowledged.
    ``The success rate of cases like mine is very low,'' he said. ``The 
laws are pretty stacked against employees, and even though . . . I took 
all this training about the No FEAR Act and whistle-blower protection . 
. . when it comes down to it, I'm finding that the protection is much 
weaker than they claim.''
    Kate Kelly, a spokeswoman for the Department of the Interior, said 
in an email to the Record Searchlight that Houser's complaint is still 
being reviewed.
    Houser said attorneys he has met with have estimated it would cost 
at least $50,000 to pursue a legal case if his complaint is denied, and 
he's hoping for pro bono legal representation if that's what happens.
    He was hired by the Bureau of Reclamation in April 2011 to check 
the integrity of studies on the Klamath dam removal.
    But Houser said the department didn't like his findings that said 
removing the four dams, three of which are in Siskiyou County, wouldn't 
be as beneficial to salmon as staff members of Interior Secretary Ken 
Salazar made it seem.
    Houser also said in his whistle-blower report that the dam removal 
and extra environmental work that would go along with it would cost 
more than $1 billion.
    The dams are owned by PacifiCorp, a private company that wants to 
remove them.
    Proponents of the dam removal say it will restore salmon habitats 
and resolve water conflicts in the region, but those opposed to the 
proposal say it will cost too much money and rob area residents of 
needed hydroelectric power.
    Houser said his complaint is about fixing a corrupted system, not 
promoting any political ideals.
    ``Scientists can do good science, but they're being directed to do 
only a certain kind of science,'' he said.
    He said he objects to such ``biased science,'' where a scientist is 
paid to justify decisions that already have been made.
    Houser said his goal in filing the complaint is to promote 
integrity, exactly what he was hired to do.
    He said he'll discuss his findings and some of the things the dam 
studies didn't address, such as the dam removals' potential to release 
toxic sediment into waterways.
    Frank Tallerico, a Yreka resident and one of the founders of the 
Cal-Ore Bi-State Alliance, said the group, which was formed in October, 
is hosting Houser because members are focused on standing up to 
government corruption.
    ``I think from our perspective, we need to support someone who is 
willing to put his job on the line,'' Tallerico said.
    He said the counties in southern Oregon and Northern California 
within the alliance--Josephine, Jackson, Klamath, Siskiyou and Modoc--
have similar environmental concerns that are often ignored by the state 
and federal governments.
    ``We're not in any way violent people or anything. We just want to 
make sure that all of the avenues that would be more beneficial to 
either the fish or man and/or both . . . are implemented, and the law 
is followed,'' he said. ``That is our goal.''
    He said all are welcome to attend the meeting.
    An agreement to study taking down the dams was made between federal 
officials, farmers, fishermen, conservation groups, American Indian 
tribes, Oregon and California governors and the owners of the dams 
about two years ago.
    Salazar was given until March 31 to make a decision on the project, 
but he said in February he'd have to wait because he hadn't gotten 
backing from Congress yet, which still hasn't happened and is needed to 
make the final call.
                                 ______
                                 
    Mr. McClintock. Did you not consider--you have said that 
you would consider this of interest to the Inspector General's 
office, but you have not looked into it?
    Ms. Kendall. I do not know that we have looked into it. I 
think it is something we should look into.
    Mr. McClintock. Why haven't you looked into it?
    Ms. Kendall. I am not aware of it, sir.
    Mr. McClintock. Have you or anyone in your office, to your 
knowledge, had any discussion with the Secretary's office, 
including the Chief of Staff, about Dr. Houser's complaint or 
your office's investigation of it?
    Ms. Kendall. None that I am familiar with, no.
    Mr. McClintock. In the list of complaints that you provided 
to the Committee, there is one by Kira Finkler. Is that 
correct?
    Ms. Kendall. If that is in the documents----
    Mr. McClintock. What was that regarding?
    Ms. Kendall. I don't know.
    Mr. McClintock. Well, Kira Finkler was Dr. Houser's boss at 
the Bureau of Reclamation. She was the official to whom he 
originally brought these allegations. Her response was to fire 
him. She is also the person who was overseeing the Klamath Dam 
restoration agreement to which Trout Unlimited is a signatory, 
and she was employed by Trout Unlimited from 2004 to 2007, but 
did not recuse herself from the Klamath project, even in light 
of this apparent conflict of interest.
    Now, I ask you again. A complaint regarding her was in your 
list of complaints provided to the Committee. What is that 
about?
    Ms. Kendall. You have provided me enough information now. I 
do remember that we received this complaint. I don't have 
detailed information about what happened to it. We could get 
back to you on----
    Mr. McClintock. You know, this is absolutely stunning. This 
is a significant matter. It involves a proposal that has huge 
environmental, fiscal, and economic impact throughout the 
entire region. And you seem oblivious to it. I find that 
remarkable.
    And, Mr. Chairman, I would like us to further this inquiry 
at a later time.
    The Chairman. The time of the gentleman has expired. And 
that is of interest to the Committee.
    The Chair recognizes the gentleman from Florida, Mr. 
Southerland.
    I am sorry, I didn't see the distinguished Chairman, the 
Subcommittee Chairman, come in. I am sorry about that. Mr. 
Grijalva is recognized for 5 minutes.
    Mr. Grijalva. Not only distinguished, but a promotion all 
in one.
    [Laughter.]
    Mr. Grijalva. My wishful thinking, by the way. Anyway, Ms. 
Kendall, thank you for being here. In listening to this, it is 
kind of--not confusing, but just astounding to me that, as we 
debate what I think is a point, but a semantical point of 
``pause,'' ``moratorium,'' and we call the process right now 
worse than the catastrophe itself, even though that cost lives 
and millions and billions of dollars in cost, both to clean up 
and to the economy of the region. We seem to skirt that issue 
as we try to somehow nail down a semantical difference as being 
the root cause of everything that happened in the Bay.
    But anyway, Ms. Kendall, the Safety Oversight Board report 
that you issued to the Secretary, it states that ``The oil 
industry must make a widespread, forceful, and long-term 
commitment to cultivating a serious approach to safety that 
sets the highest safety standards and consistently meets them. 
Ultimately, for a new and robust safety culture to take root, 
industry must not only follow the rules, it must assume a 
meaningful leadership role.''
    The Majority of this Committee has refused to invite the 
CEOs of the largest oil companies to testify on what changes 
they have made to that culture, as industry leaders, to improve 
the safety of offshore drilling following the spill. In fact, 
BP's CEO has never testified before Congress since assuming 
that position.
    Don't you agree that the heads of the largest oil companies 
should come before Congress so that the American people can 
hear what actions they have taken to assume the meaningful role 
in developing the new safety culture that was called for in the 
report?
    Ms. Kendall. I would certainly like to know if that safety 
culture has been instituted. I think it was very important to 
the Safety Oversight Board at the time, that some of the 
responsibility be placed on industry, as opposed to primarily 
government being the oversight and the imposer of 
responsibility.
    Mr. Grijalva. And, Ms. Kendall, in the report it recommends 
also evaluating the rates and structure of civil penalties and 
possibly initiating the legislative process to ensure that 
penalties are appropriately tied to the severity of the 
violation.
    Right now, the maximum fine the Interior Department can 
levy for oil companies that commit violations offshore is 
$40,000. That is a slap on the wrist for most companies 
operating offshore. For instance, the maximum fine that 
Department of the Interior could levy against BP for the oil 
spill would be $21 million.
    Former Director of the agency and the Director of BOEM have 
both said that Congress should increase these penalties 
significantly to provide a sufficient financial deterrent to 
companies who violate the law.
    Would you agree that Congress should look at raising these 
penalties significantly, as stated in the report?
    Ms. Kendall. Yes. Our recommendation was to work with 
Congress to review how these penalties are imposed, and what 
the caps are.
    If I recall correctly--and I don't have perfect recall at 
this point--but there was some restriction that the Department 
could not do this unilaterally, and needed help from Congress.
    Mr. Grijalva. Thank you, and----
    Dr. Holt. Would you yield?
    Mr. Grijalva. Let me yield to the gentleman.
    Dr. Holt. Thank you. I would like to bring this discussion 
back to earth.
    The other side said the question is did the Department of 
the Interior deliberately agree that there should be a 
moratorium. Well, there is no question that they deliberately 
said there should be a pause. So we could spend all day or all 
month or all year investigating whether pause equals 
moratorium, and whether we should ruin people's careers in the 
Department of the Interior because of that difference. But it 
is all based on this, really, sad misunderstanding from the 
other side of the aisle here, that somehow the moratorium is 
worse than the oil spill disaster.
    This moratorium--and remember that we now have 50 percent 
more floating rigs working in the Gulf than we did before the 
BP spill; during this delay/pause/moratorium there were no lay-
offs. And yet, because of the spill, because of the dispersants 
that were used, because of the oil that was spilled, there was 
enormous environmental damage. We know there is enormous 
economic damage. And there were lives lost.
    Don't tell me that ``pause'' or ``moratorium'' is worse 
than the disaster. And we should be investigating the disaster 
and the effects of that disaster and the steps to provide 
safety and public health and environmental protection into the 
future, rather than yanking people before this Committee to 
talk about whether they deliberately changed the word ``pause'' 
into ``moratorium''. Come on.
    The Chairman. The time of the gentleman has expired. We 
have a vote going on. And my intention is to recognize Mr. 
Southerland, and then after that we will break. We have two 
votes. And we will reconvene. This is important timing. We will 
reconvene 10 minutes after the start of the last vote. As soon 
as this second vote starts, 10 minutes thereafter we will 
reconvene.
    The Chair recognizes the gentleman from Florida, Mr. 
Southerland.
    Mr. Southerland. Thank you, Mr. Chairman. I have to say, 
Mr. Chairman, I find it somewhat disturbing that some of my 
colleagues claim that those of us who live on the Gulf of 
Mexico have completely forgotten this disaster. I think it is 
grotesque in their accusations, when I live each and every day 
with people that have been affected by this. My family has been 
affected by this. And I think it is unbecoming of their 
position, especially the Ranking Member.
    I would like to say to Ms. Kendall I am concerned that, in 
the past, government officials have used their personal email 
account as a way to avoid scrutiny by Congress and the public. 
I am also concerned that sensitive investigative or law 
enforcement information would be treated so casually that it 
would be sent through unsecured means, such as Yahoo! or Gmail, 
or whatever.
    Does the IG have a secure way to access email remotely?
    Ms. Kendall. Yes.
    Mr. Southerland. Then what is the policy for using your 
personal email account, rather than your official IG email 
account?
    Ms. Kendall. I don't know that we have a policy on that.
    Mr. Southerland. OK. Well then, obviously you have a 
personal email account, as Members of Congress do, and we all 
have our official email accounts, as well.
    May I ask you how often do you use your personal email 
account to conduct professional business?
    Ms. Kendall. I use my personal email fairly regularly to 
send myself reminders to send work that I have worked on at 
home. But I do not send any sensitive information that would 
need to be encrypted or have any other kind of protections. We 
do have a policy on that.
    Mr. Southerland. So you limit your email use of your 
personal email account to personal business, or as a reminder 
from you in your personal email account to your business email 
account to remind you of stuff that needs to be done?
    Ms. Kendall. Yes, or to transmit, for instance, draft 
letters back to this Committee.
    Mr. Southerland. OK. I know, as a part of the emails that 
your office has provided, there are a number of official IG 
emails that appear to have been sent from your personal--as you 
stated, your Yahoo! email account--as opposed to the IG 
account.
    And I would ask at the desk--I know we have an exhibit.
    [Slide shown.]
    Mr. Southerland. You can clearly see from the exhibit that 
we have on the screen, we have an email that was sent from 
Stephen Hardgrove--it wasn't from you, obviously--to you, as a 
reminder, but it was sent from Stephen with the IG's office, 
obviously to your personal email account. And down at the 
bottom, this statement: ``I have no problem working closely 
with the Department on this.''
    And the whole purpose of this email was the discussion of 
this was the Safety Oversight Board that has been the center of 
discussion today, the statement, ``I have no problem working 
closely with the Department on this or other issues, I probably 
did not realize that the majority of our staff is not yet 
prepared for it, nor understands it,'' so based on that, this 
individual who sent an email to your personal account, was he 
in violation of the IG policy by sending and corresponding with 
you on your personal account? And is it fair for us to be 
curious as to the use of your personal account that could be in 
violation of the IG policy that you claim you do have?
    Ms. Kendall. Yes. Quite frankly, I don't know the details 
of the policy, other than on sensitive and encrypted, or 
sensitive information that needs to be encrypted.
    But I am looking back at the date here. I don't know that 
in 2010 that we had the capacity to access work email from home 
like this. We do now. But I am not sure that we did at the 
time.
    Mr. Southerland. Can you provide the Committee with copies 
of any internal IG policies, or guidance on the use of personal 
email for conducting official business?
    Ms. Kendall. If we have it, yes.
    Mr. Southerland. OK. Well, you claimed just a few minutes 
ago that you do have it.
    Ms. Kendall. Well, I know we have policy governing email. I 
don't know if we have policy governing personal email.
    Mr. Southerland. OK. If you have that, whatever you have 
regarding email policy, I think it would be helpful for us to 
see. And I think that would be--obviously, you can understand 
our concern if there are personal emails being used because we 
need to do searches. Certainly a person in your position could, 
and should, understand the conflict there. I mean, is that 
fair? I mean, you understand my concern?
    Ms. Kendall. I am not sure that I do. But----
    Mr. Southerland. Well, that is even a bigger problem. And 
the reason I say that is a bigger problem is because a person 
in your position, you are paid significantly in your position. 
You have tremendous authority, people under you. And I find 
that a leader--which you are in a leadership position--you must 
at all times practice discretion and discernment borne out of 
wisdom. And I think that, at the very minimum, that has been 
brought into question. And----
    The Chairman. The time of the gentleman has expired. I----
    Ms. Kendall. Mr. Chairman, if I may, I did not have an 
opportunity to finish my answer.
    The Chairman. Real quickly, because we have to break. The 
vote is getting close. But I will give you 30 seconds.
    Ms. Kendall. I do not understand the concern, because we 
did provide--and the reason the Committee knows I use my 
personal email--is we provided those emails to the Committee in 
response to your requests.
    The Chairman. OK. I appreciate the gentlelady's answer.
    We will recess again, and reconvene 10 minutes after the 
start of the second vote. The Committee stands in recess.
    [Recess.]
    The Chairman. The Committee will reconvene. The Chair 
recognizes the gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. I thank the Chairman. I was in my office and 
watching a bit of the hearing, and I have to say I am a bit 
puzzled at sort of the demeanor of some of the Members here, as 
though some crime has been committed.
    It appears that the question is the difference between the 
word ``pause'' and the word ``moratorium''. And I looked up 
``pause'' and I looked up ``moratorium''. There is no limit on 
a pause. A pause could be 6 months, a pause could be 12 months, 
a pause could be a decade. Moratorium has slightly different 
meaning. But again, there is no duration attached to the word. 
And in this report, the number six was attached. The number--
you know, you could have used the word ``pause,'' and you could 
have said, ``Well, we are going to pause for a year.''
    And we paused for good reason. The blow-out preventer 
didn't work. Why didn't it work? It was kind of critical to 
know why the blow-out preventer didn't work, since that is our 
last line of defense against catastrophic oil spills. And you 
know, it appears that the blow-out preventer wasn't capable of 
cutting at least 10 percent of the pipe as joined, and there 
were other problems with its maintenance. That has all come 
out. And so, I think it was very prudent that we took a little 
time to figure out, ``Whoa, we've got a failsafe here, and the 
failsafe failed.''
    So, anyway, I would like to just yield some time to the 
Acting Inspector General, if she has anything to say, because I 
noted she has had little opportunity to respond to what has 
been going on here.
    Do you have anything you would like to add or elucidate 
upon? Was I inaccurate in anything I just said?
    Ms. Kendall. I have not looked up the difference between 
``pause'' and ``moratorium,'' so I appreciate that information. 
And I appreciate the time.
    The thing that I guess I would like to come back to is the 
focus of the investigation that we conducted. And it was very, 
very focused, primarily because of the words from you, Mr. 
Chairman, asking that we look at how the Executive Summary was 
edited to suggest that the moratorium decision was peer-
reviewed. And that is what we did. We had the information, the 
documentation that we needed. It came down to these emails that 
had been sent in the early morning hours between, I believe, 
11:38 p.m. and 2:13 a.m., where the editing had been done. And 
that is where the editing that was changed by the White House 
personnel went from suggesting that the moratorium was the 
Secretary's decision to the moratorium had been peer-reviewed. 
And that really was the only focus of our investigation. We got 
all the information that we needed to make that determination, 
and we did so.
    I thank you for the time.
    Mr. DeFazio. So some over-zealous politically appointed 
White House staffer, probably junior level, made an edit that 
they thought added some emphasis to the Executive Summary.
    Ms. Kendall. There was no evidence in the email exchange to 
suggest that that was done intentionally.
    Mr. DeFazio. OK. But still, it was done over at the White 
House by some sort of editing----
    Ms. Kendall. The editing changes that occurred to make this 
distinction lost, essentially, were the edits at the White 
House.
    Mr. DeFazio. OK. But--and I--perhaps you are not an expert 
on this, but as I understand the peer review, they did 
recommend a pause, which I mentioned earlier.
    Ms. Kendall. I don't know that.
    Mr. DeFazio. I believe that they did. And that is why I 
feel that the focus is on the difference between 6-month 
moratorium and pause, which could be dramatic, it could be non-
existent, a pause could be longer.
    So, you know, I appreciate the fact we have had--how many 
documents now have you provided, or emails?
    Ms. Kendall. I couldn't even begin to count.
    Mr. DeFazio. Hundreds? Thousands?
    Ms. Kendall. Hundreds, perhaps thousands.
    Mr. DeFazio. OK. And yet it seems that there is a thirst to 
spend more time on this issue. Again, I remain puzzled. I 
appreciate your service and hope that we move on to more 
important subjects.
    Thank you, Mr. Chairman.
    The Chairman. The time of the gentleman has--or the 
gentleman yields back his time. The Chair recognizes the 
gentleman from Texas, Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman. Thank you, Ms. 
Kendall, for being here.
    Before we get into questioning with you, I wanted to 
respond to a couple things that have been said earlier. Number 
one is I think it was Mr. Holt said the number of deepwater 
rigs in the Gulf of Mexico is up 50 percent. That is false. It 
is down 15 percent, still. So jobs are still being impacted by 
the moratorium, permatorium, slow-down, whatever you want to 
call it.
    The second thing is the Ranking Member called this hearing 
trivial. This is not a trivial hearing, in light of the 
Administration's lack of transparency. This is not trivial, 
when you have another cover-up called Fast and Furious. It is 
not trivial when you look at the Department of Labor rewrite of 
the Warren Act outside of its statutory authority. It is not 
trivial when you look at the Obama Administration rewrite of 
welfare laws, contrary to the constitutional authority of the 
President. And it is not trivial when you look at the abuse 
that is happening to taxpayer dollars with the GSA. So I just 
want to get that off the table.
    In your written statement, you invited the Committee to 
review the IG's editing of the November 2010 moratorium report. 
And so I would like to take you up on that invitation. And if 
we can bring up exhibit 11--excuse me, exhibit 5, exhibit 5.
    [Slide shown.]
    Mr. Flores. In exhibit 5, you struck out the original draft 
language that stated the IG could not independently validate 
that the emails provided by Steve Black were complete and 
unedited. Why did you strike out that sentence?
    Ms. Kendall. You know, I don't have a recollection 
specifically of actually addressing that issue. But my question 
would have been to the investigating agent, if I were asking 
the question today, ``What is it that we need to validate? We 
were provided the documents that''----
    Mr. Flores. Well, let's----
    Ms. Kendall.--``that focused on the question at hand, and 
that was how did this editing occur.''
    Mr. Flores. Well, let's talk about this. One of the things 
that we need to know about the IG's investigation, and one of 
the things the American public needs to know about the IG's 
investigation is, was the scope so inherently reduced that the 
report is not worth the paper it is written on? And in this 
case, if you didn't review the White House emails, and I think 
that is the case, is that correct? You did not review the White 
House----
    Ms. Kendall. We did review the White House emails.
    Mr. Flores. The ones internally?
    Ms. Kendall. The ones that were exchanged between the 
Department of the Interior and the White House, where the 
editing took place.
    Mr. Flores. But none of the ones internally. Is that 
correct?
    Ms. Kendall. I'm not sure what you're----
    Mr. Flores. Internal to the White House.
    Ms. Kendall. We only had access to those that were provided 
to us from Steve Black.
    Mr. Flores. Right. OK, but----
    Ms. Kendall. And those were White House----
    Mr. Flores. But none inside the White House. That is where 
I am trying to go.
    Ms. Kendall. Our jurisdiction does not extend to the White 
House, sir.
    Mr. Flores. OK. Then don't you think that this statement 
that got struck, don't you think that would be informative when 
you look at the report's conclusions, and weighing the 
assertion by Steve Black, that the peer review language was not 
intentionally edited to suggest the peer reviewer support of 
the moratorium?
    Ms. Kendall. What is your question, sir?
    Mr. Flores. So don't you think the statement that you 
struck, don't you think that would have been informative, when 
it says that the OIG could not independently verify whether the 
emails had been edited or not?
    Ms. Kendall. I don't think it was a question of the emails 
being edited. The emails were provided to us. There was nothing 
to indicate that they weren't thorough and complete.
    Mr. Flores. OK. Now this kind of a sentence, from what I 
understand, is fairly common in IG reports. If you left that 
sentence--I mean, you have had to come out and clarify that you 
weren't able to independently verify the witness statements. 
Don't you think it would have been better if you left this 
sentence in? You wouldn't have had to come back and clarify 
that. Correct?
    Ms. Kendall. I am not sure what you are asking, sir.
    Mr. Flores. OK. Well, let's move on. Let's move to exhibit 
11, if we can, because I am running out of time.
    [Slide shown.]
    Mr. Flores. In the last sentence of Mr. Larrabee's report 
it says, ``We simply were not allowed to pursue the matter to 
the White House. But, of course, that is not mentioned in the 
report.'' Don't you think that sentence would have been more 
transparent, and would have prevented the Secretary from being 
able to incorrectly claim that the IG's report confirmed that 
there was no intent to mislead or avoid confusion about what 
the report found or did not find?
    Because, you know, the Secretary has tried to hide behind 
this, your report, and say, you know, ``There was no--nothing 
went wrong.'' But what your inspector is saying, investigator 
is saying, he said, ``I couldn't verify that.''
    Ms. Kendall. Well, what he is saying is that he could not 
pursue it to the White House, because our jurisdiction does not 
extend to the White House.
    Mr. Flores. OK. I think it would have been better to say in 
the report that you had--the scope was so reduced that the 
validity of the report itself was in question.
    And I am out of time. Thank you. I yield back.
    Ms. Kendall. Well, if I may respond to this, Mr. Chairman--
--
    The Chairman. Go ahead, please respond.
    Ms. Kendall [continuing]. I will be brief. But the case 
agent wrote the first draft of the report. And he did not 
include any reference to this. So it was not as if it was 
excluded. He did not put it in. I just want to make that clear.
    The Chairman. All right. The time of the gentleman has 
expired. The Chair recognizes the gentlelady from Guam, Ms. 
Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. If you could, be 
concise in your answers, because I do have quite a few 
questions.
    After you finished editing, you sent your revisions back to 
the case agent and asked him if he had any issues with your 
changes. He then responded, ``Your email language about the 
exchange between DOI and the White House was far simpler than 
my own. Yet I believe it still clearly captured our finding.'' 
Is that correct?
    Ms. Kendall. That is correct.
    Ms. Bordallo. If the case agent had concerns, he didn't 
communicate them to you when he had the chance. You were 
surprised when you read some of the case agent's emails that 
have come out in this investigation, weren't you?
    Ms. Kendall. Very much so.
    Ms. Bordallo. The case agent also speculated in an email to 
an OIG colleague that the editing was intentional. But he also 
recognized that there weren't facts to back up his speculation. 
In fact, he wrote to you that ``the jury will always remain 
out'' on this question. And also, ``The reader of the OIG 
report will have to make their own speculations on that 
topic.'' Is that correct?
    Ms. Kendall. That is correct, and that is what surprised me 
the most.
    Ms. Bordallo. All right. Going on, you have been Acting 
Inspector General for the last several years. Is that correct?
    Ms. Kendall. About 3\1/2\ years.
    Ms. Bordallo. How many? Three-and-a-half years, OK. What 
work has the OIG done during that time that you are most proud 
of?
    Ms. Kendall. I would say, really, all the work that the OIG 
has done. But perhaps the most important, particularly relative 
to this, was the review we did on the Outer Continental Shelf, 
the comprehensive review, which today is still being 
implemented by what used to be Minerals Management Service, is 
now three bureaus in the Department.
    Ms. Bordallo. OK. And did that work achieve benefits for 
the American people and taxpayers?
    Ms. Kendall. I would say it was one of the most 
comprehensive and impactful documents that we have issued in a 
good number of years.
    Ms. Bordallo. Very good. I feel that this is what the 
Office of Inspector General should be doing, without being 
distracted by baseless document requests from this Committee. 
And members of this Committee should understand the important 
work that you do, and what is at risk if we continue to consume 
your time on this frivolous investigation. And I want to thank 
you for what you have done.
    Ms. Kendall. Thank you.
    The Chairman. The gentlelady----
    Ms. Bordallo. I yield back.
    Mr. Markey. Would the gentlelady yield?
    Ms. Bordallo. Yes.
    Mr. Markey. Thank you. Maybe it would be possible for you 
just to elaborate a little bit more on what the benefits were 
from the work that you have done in the last 3\1/2\ years, 
overseeing the Department of the Interior, so that there can be 
a fuller understanding of the comprehensiveness of that.
    Ms. Kendall. Well, I am going to be at a loss to sort of 
cite chapter and verse right here. But I went back and took a 
look at the last five semi-annual reports that the OIG issued, 
the first under my signature up to the last. And I was actually 
pleasantly surprised, but surprised nonetheless, with the 
incredible amount of work that our office accomplishes every 6 
months, and the breadth of the work that we do.
    As you know, the Department has nine bureaus and offices 
that have very, very diverse missions. We go from Indians to 
minerals to lands to geological survey. And every day is 
something new. Part of what is so rewarding about working in 
the Office of Inspector General for the Department of the 
Interior is the breadth of----
    Mr. Markey. And how much of a distraction is this 
investigation that this Committee is trying to conduct thus 
far, with no avail at all, no evidence at all?
    Ms. Kendall. It is----
    Mr. Markey. From that other work that you are doing, which 
sounds like it is critical in making sure that we do root out 
the wrongdoing that goes on, the inefficiencies that exist.
    Ms. Kendall. Well, it has certainly been a distraction to 
me. I have kept my eye on what else we are doing, but it has 
taken a considerable amount of time from me and my senior 
leaders and senior advisors. I can't quantify it beyond that, 
other than it has been considerable.
    Mr. Markey. And again, thank you so much for your work. 
Thank you for your contributions to our country. Thank you for 
the job you and your staff play in providing oversight for this 
agency.
    And again, I can't raise enough times this problem that we 
have, that this debate over whether or not there was a pause 
called for or a moratorium called for, and Secretary Salazar is 
saying that he called for the 6-month moratorium. The Secretary 
himself, we should bring him here, you know, let him explain 
what his judgment was.
    But we are not going to hear about the spill. We are not 
going to hear about the damage. We are not going to hear about 
BP or Halliburton or Transocean. None of that is ever going to 
come before this Committee. That is not part of the Republican 
agenda, you know? They don't want to talk to the CEOs. They are 
talking here about a semantical difference, a terminological 
inexactitude, you know, that is built into this discussion that 
went on at the agency, as though that is the real issue, rather 
than this historic crime against the environment that was 
committed here in the country.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Louisiana, Mr. Landry.
    Mr. Landry. I mean, if there is any Member here who has had 
constituents affected by the moratorium--because we have many 
here who have been affected by the spill--but if there has been 
anyone who has been affected by the moratorium, it is my 
constituents. It is the constituents that I serve.
    And you hear a lot about, ``Well, there were no lay-offs, 
and there are a lot more rigs in the Gulf.'' The reasons that 
there were not as many lay-offs as you would think is because 
people down in South Louisiana, they are not lazy. They don't 
want the government for anything but to get off their back.
    And so, when you kill their jobs in the Gulf of Mexico, 
they have to leave their families and they have to travel to 
Africa, to the North Sea, to Montana. Because they know one 
thing is that the country they grew up in, it is God, family, 
and work. OK? So they don't sit there waiting for the 
government to give them a check or to feel sorry for them, they 
go to work, and they leave. But it is sad when they have to go 
to Africa, instead of working the Gulf of Mexico.
    And I don't understand. Are you an investigative branch, or 
are you a policy-making branch?
    Ms. Kendall. We are an audit and investigative branch.
    Mr. Landry. OK. Because if I close my eyes, when I listen 
to you answer the questions from Members of the other side, I 
could swear you are petitioning to become the Secretary, 
because your answers are all about policy. They are not about 
investigation.
    We had a gentleman ask you whether or not you felt that the 
safety standards that the private industry was implementing 
were enough. That is not your scope. And then just now you 
answered and talked about how proud you were of the work that 
was done from moving from MMS to BOEM to BSEE. That is not your 
job, either.
    And so, unfortunately, I believe that your testimony today 
has impeached you, has impeached your character. Because 
earlier you said that, sure, that, you know, you are interested 
in the job of the Inspector General, because you are an 
interim, and you need the President to appoint you if you want 
to get to that job.
    Why simply did you not just say, ``You know what? I am 
interested in taking this job, Mr. President. Maybe you should 
appoint someone in the interim, while I go out and I lobby for 
that job?'' Then there would have been--I mean, I am sure you 
are a bright lawyer. There would have been no question. This 
Committee would not have to question your character or your 
actions.
    Why didn't you just step aside, and say, ``Look, I want to 
run for this job. I want to apply for this job. And let's 
appoint another interim who will have no bias as to whether or 
not they want the job or not.'' Why didn't you do that?
    Ms. Kendall. When I was asked to become Acting Inspector 
General, Earl Devaney, the Inspector General at the time, asked 
me to take over his role when he went to the Recovery and 
Oversight Board. At the time, I wasn't thinking about becoming 
the IG. I didn't know what was going to happen with Mr. 
Devaney's appointment to the Recovery Act board. And it was the 
natural----
    Mr. Landry. Progression. It was the natural progression. 
Well, but there comes a point in time--as a lawyer you know 
that well, that there becomes a question of conflict of 
interest.
    Now, let me ask you a question. If someone inside the 
Department intentionally causes irreparable harm to an 
industry, is there a criminal statute that you can use to go 
after that person? If they intentionally cause harm on an 
industry, do you know of a criminal statute that we could use 
to go after them?
    Ms. Kendall. I am not--I don't know if there is a criminal 
statute for that.
    Mr. Landry. Do you think we should have one?
    Ms. Kendall. Intentional harm by itself may be a criminal 
violation.
    Mr. Landry. Well, I see an email. There is an email here 
that--from the case manager, which says--and I read--
``Salazar's statement that our ROI concludes it was a mistake 
and unintentional is a clear attempt to spin our report. I 
truly believe that editing was intentional.''
    Now, this isn't about a pause. Because the American Academy 
of Science, they said, ``Look, a 30-day pause certainly would 
have been sufficient.'' A 6 month one they did not stand by.
    So, would you say that anyone who intentionally altered the 
document caused irreparable harm to an industry?
    Ms. Kendall. Well, let me just be clear that that was the 
case agent's opinion. The evidence did not support that 
opinion.
    Mr. Landry. But that is why we are here today, because no 
one will give us the rest of the evidence.
    Ms. Kendall. I understand that.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from New Mexico, Mr. Lujan.
    Mr. Lujan. Thank you very much, Mr. Chairman. And, 
Inspector General, I, for one, appreciate the character you are 
showing today, with the type of questioning that you are having 
to go through. I think words matter. That is why we are here 
today. Because the change of a word is what elicited today's 
conversation. And when we tell you that you have impeached your 
own character today, I am sorry. I am sorry that was said. 
Because words matter.
    And because words matter, I have a dictionary here. I have 
Webster's New Dictionary of Synonyms. Anyone is welcome to 
borrow it. As a matter of fact, I have added tabs to save 
everybody time, where ``pause'' and ``moratorium'' are in here. 
They are here for anyone to use. They are in the Minority's 
books. But I think that if we found these same books, the same 
editions in the Majority's offices, they would read the same 
thing. I would hope they would.
    And maybe we should subpoena whoever is working for Mr. 
Webster to ask him why they defined ``pause'' the way they did, 
why they defined ``moratorium'' the way they did, to get to the 
bottom of this.
    What we should be talking about today and in the future is 
the moral question. Eleven people's lives were taken. Is that 
your understanding, Inspector General?
    Ms. Kendall. Yes, sir.
    Mr. Lujan. Do you know how many gallons of oil were spilled 
in the Gulf?
    Ms. Kendall. I don't know. It was in the millions.
    Mr. Lujan. I think the numbers I have here somewhere are 4 
million.
    Look, if there wasn't a spill, we wouldn't be here today. 
If the blow-out preventer had worked, we wouldn't be here 
today. If that hadn't failed, we hadn't lost 11 lives, 11 
fathers, 11 brothers, 11 sons--that is a catastrophic event.
    And, Mr. Chairman, I know sometimes when we are trying to 
get to the bottom of something, words matter. But why are we 
here?
    And when the President asked for the 30-Day Report to be 
compiled and put together in 30 days, given the magnitude of 
what was talked about here, I think we all wanted to get to the 
bottom of this. There is not a one of us that did not want to 
know what happened, and not a one of us that didn't want to 
plug that, and make sure that not another drop of oil got out, 
make sure that not another one life was put in danger. We all 
wanted that. And I appreciated that congeniality that we all 
had during that time.
    So, I hope that that is where we can concentrate some of 
our efforts, and see what we can do to get to the bottom of 
this, as well.
    Now, Inspector General, one of the gentlemen from Texas 
today asked you earlier why you didn't investigate Mr. Larrabee 
for praising you to your face while criticizing your work to 
others. If you had investigated Mr. Larrabee, wouldn't some 
people, including maybe some on the Committee, attack you for 
retaliating against Mr. Larrabee? In other words, are you in a 
Catch-22 with having to respond to this?
    Ms. Kendall. Well, I certainly feel that if we were to 
investigate Mr. Larrabee, there would be repercussions from 
this Committee, yes.
    Mr. Lujan. Well, I appreciate that, Inspector General. And 
you know, Mr. Chairman, before I yield back, again, words 
matter. And I know sometimes the words we use matter. The words 
we use in debate matter. The words that we use to describe our 
friends or those that we don't agree with necessarily matter. I 
just hope that we truly understand the magnitude of words 
sometimes with the kind of work that people are putting forward 
to sacrifice for themselves.
    And so, with that, Mr. Chairman, I am not sure if the 
Ranking Member needs any time, but with that I would yield 
back, Mr. Chairman. Thank you.
    The Chairman. I thank the gentleman. He yields back his 
time. The Chair recognizes the gentleman from South Carolina, 
Mr. Duncan.
    Mr. Duncan of South Carolina. Thank you, Mr. Chairman. The 
question has been asked. Why are we here today? We are here 
today because an Executive Summary, part of a 30-Day Report led 
to the detrimental effect on lives.
    The gentleman from Louisiana talks about the impact on his 
State and the people that are creating jobs or working those 
jobs providing for their family, they now have to go other 
places for employment. The 30-Day Report that led to the 
moratorium that kept our Nation from being able to meet its own 
energy needs.
    Why are we here today? One day after his inauguration, 
President Obama promised a new era of openness in government. 
``We will work together''--I quote, his words--``We will work 
together to ensure the public trust and establish a system of 
transparency, public participation, and collaboration.'' He 
wrote in one of his first memos to the Federal agencies, he 
said, ``Openness will strengthen our democracy and promote 
efficiency and effectiveness in government.''
    But, Ms. Kendall, I look at your written statement, and you 
say that this is ``a unilateral approach to investigate me by 
requesting select documents from the Office of the Inspector 
General, drawing conclusions from those documents without all 
the facts.'' No. We subpoenaed you and your agency because we 
want the facts. We are asking for the facts. And we can make 
and draw our own conclusions from the documents and those 
facts. That is what we are trying to do today.
    That is what we are trying to do today, is get to the 
bottom of what led to this moratorium that affect lives in 
Louisiana and all along the Gulf Coast, and affected the lives 
of people in my district and South Carolina that are paying 
higher gasoline prices today to drive to and from work. That is 
what this meeting is about here today. And I appreciate the 
Chairman holding this hearing.
    The gentleman from Florida was really delving into 
something before he ran out of time. So, Mr. Chairman, I will 
yield the balance of my time to Mr. Southerland from Florida.
    Mr. Southerland. I think that--I would like to thank the 
gentleman from South Carolina for yielding me time. I know that 
I was asking you questions regarding emails before we went to 
the Floor to vote. And I had asked you about providing for us 
IG policies and guidance. At one time you said that you weren't 
aware of those, and then you said you were aware of those, but 
you were going to find those for us, if they do exist, and 
provide those for us.
    I was going toward, really, I think a more important issue, 
really relating to your desire to move forward. You had claimed 
that you were seeking the opportunity, perhaps, of a more 
permanent position. And I think what we see here is, throughout 
the testimony today, that it has been--it--you either know what 
is going on through many of your answers and you have not 
perhaps answered those in a way that I find acceptable, or you 
are not aware--and I think perhaps could be the case--of 
policy. Or, you are not aware of things that have been referred 
or not referred to the Attorney General. You don't have memory, 
and then you come back and say, ``Oh, I do now remember.''
    I mean, I am bothered by the fact that you may not seem to 
be on top of these issues.
    Ms. Kendall. Well, let me just say that I have a very, very 
talented staff that takes care of--for instance, the case 
review group, who reviews all of the allegations that come to 
the Office of Inspector General. I do not personally 
participate in that group. I do not personally decide what 
should be or should not be investigated, unless it is brought 
to my attention.
    So, no, you are right, I don't know everything that is 
going on in terms of referrals or investigations. Once they are 
investigations, however, I do know about them, because I am 
briefed regularly by a very competent staff that----
    Mr. Southerland. But you claim that there had been zero 
referrals made to the Attorney General in the last 3 years.
    Ms. Kendall. I said I don't--I think that is--no. When you 
said zero referrals--for ethics violations.
    Mr. Southerland. OK.
    Ms. Kendall. We have made many referrals.
    Mr. Southerland. OK, OK, all right. Well, I apologize if I 
misunderstood. OK. So zero referrals for ethics violations.
    Ms. Kendall. As far as I know.
    Mr. Southerland. OK. But do you get a report on those? Do 
they--I mean, I am assuming you have weekly staff meetings and 
your team is communicating with you on investigations and 
ethics probes and, I mean----
    Ms. Kendall. Yes, I do.
    Mr. Southerland. OK, OK. I would like to thank the 
gentleman from South Carolina, and I yield back.
    The Chairman. The gentleman yields back. There has been 
interest in having another round. I think that that interest 
should be observed. And so, we will start another round. And I 
just have a few questions, and I will recognize myself.
    First of all, let's establish, again, what this is all 
about. The BP spill was in deep water. That was in deep water. 
The moratorium was in shallow water. And the consequences of 
the moratorium had a huge effect on the economy and 
individuals' lives. So let's make sure that that distinction is 
made.
    Now, I want to ask you, Ms. Kendall. You mention that you 
had no jurisdiction--and I agree--with the White House. That is 
correct?
    Ms. Kendall. Yes.
    The Chairman. Is there anything that prevents you from 
asking a question of the White House?
    Ms. Kendall. I don't think it would prevent me from asking 
a question.
    The Chairman. Well----
    Ms. Kendall. But----
    The Chairman. If it didn't prevent you, and you 
acknowledged that the edit happened in the White House, logic 
would suggest that you would ask the White House why, and they 
would make the determination whether they should answer or not.
    Ms. Kendall. Well, no, sir. I did not, for instance, go 
knock on the White House's door to ask a question. I inquired 
of the Deputy Secretary, who is in regular contact with the 
White House, saying it would be helpful for us----
    The Chairman. Well, wait. Now, you are independent. Why 
would you have to go through the Deputy Secretary? You are an 
independent inspector. If you thought that it was important--
and clearly the evidence said there, because you said it was 
decided in--why didn't you just ask? Why did you have to ask 
permission to ask?
    Ms. Kendall. I didn't ask permission to ask, sir. We do 
not----
    The Chairman. Well, why did you even go through the 
political appointee to make that inquiry? I mean, nothing 
prevents you from asking the question. Why didn't you ask? Why 
wasn't it asked?
    Ms. Kendall. That was the decision I made at the time, sir.
    The Chairman. OK.
    Ms. Kendall. Again----
    The Chairman. All right, that is fine. I respectfully think 
that was the wrong decision.
    Let me ask this. Do you think that the 30-Day Report was a 
policy document?
    Ms. Kendall. I am almost embarrassed to say this, sir, but 
I have never read the 30-Day Report.
    The Chairman. Well, do you think the 30-Day Report was a 
policy document?
    Ms. Kendall. I think the 30-Day Report was much like OIG 
reports, which contain recommendations----
    The Chairman. Wait. Now, if you can't say that it was not a 
policy document, do you think the moratorium was a policy?
    Ms. Kendall. I think the moratorium decision was a policy 
decision.
    The Chairman. OK. Now, if the 30-Day Report drives to the 
moratorium, would it not suggest that the 30-Day Report was a 
policy document?
    Ms. Kendall. The 30-Day Report did not contain the 
moratorium recommendation.
    The Chairman. It came from that document.
    Ms. Kendall. I don't know that, sir.
    The Chairman. You don't know that?
    Ms. Kendall. I don't. I don't know where the moratorium 
decision came from. I was not part of the 30-Day Report----
    The Chairman. If it----
    Ms. Kendall [continuing]. Or that decision.
    The Chairman. Well, it came from the 30-Day document. And 
your own report suggests that it came because of editing from 
the White House.
    Ms. Kendall. We----
    The Chairman. But you--Ms. Kendall, I find it hard to 
believe that you can say or suggest or agree that the 
moratorium was a policy decision, yet you can't say that the 
30-Day Report which led to the moratorium was a policy 
document. I find that hard to believe.
    Ms. Kendall. I can't say what the 30-Day Report was, or 
that it led to the moratorium. I have already said----
    The Chairman. You--so you----
    Ms. Kendall [continuing]. That I did not read the 30-Day 
Report, and I know that the moratorium recommendation was 
contained only in the Executive Summary.
    The Chairman. Based on that report. I mean, the deadline, 
and the reason this came in the middle of the night, was 
because of the 30-day deadline of the 30-Day Report. And you 
are saying--well, I have some real problems understanding your 
logic on that. And I said that in my opening statement. And, 
frankly, that has been confirmed to me.
    I will yield the balance of my time to Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. And thank you for 
being here. In a May 23rd article this year in USA Today, you 
are quoted as saying, ``I was an active listener. I was not an 
active participant in these meetings.'' Is that a correct 
quote?
    Ms. Kendall. Yes, it is.
    Mr. Lamborn. OK. What is the difference between an active 
listener and an active participant?
    Ms. Kendall. My distinction here is I did not ask any 
questions in these meetings. I was there to hear what was being 
said, to learn as much as I could about deepwater drilling and 
the things that attend to it so that I could inform myself, as 
a member of the Safety Oversight Board, and lead the team that 
we had conducting the Outer Continental Shelf evaluation.
    Mr. Lamborn. So you were an active listener.
    Ms. Kendall. Yes, sir.
    Mr. Lamborn. But not an active participant.
    Ms. Kendall. No, sir.
    Mr. Lamborn. OK. And in the law I think that is called a 
distinction without a difference, at least in my opinion.
    OK. Exhibit number nine, which----
    The Chairman. The time of the gentleman has expired.
    Mr. Lamborn. Thank you.
    The Chairman. All right. The Chair recognizes the gentleman 
from Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman. The Majority has 
claimed that the economic impacts of the 6-month moratorium 
were worse than the economic impacts of the spill itself, worse 
than the impacts of the worst environmental disaster in 
American history.
    But the reality is there were not significant lay-offs in 
the oil industry from the moratorium. And now, why is that, you 
might ask. Why weren't there significant lay-offs? Well, it is 
because President Obama secured $20 billion from BP to aid the 
Gulf and its people. Because President Obama got BP to put up 
$100 million specifically to aid any oil rig workers affected. 
Because that $100 million was expanded to help any oil service 
and support companies. And it was because the oil companies 
knew that drilling in the Gulf would resume in a safer manner 
under President Obama. That is the reason why we now have 50 
percent more floating rigs working in the Gulf of Mexico than 
before the spill. These rigs did not leave. These rigs kept 
their employees. Those employees were compensated by the fund 
that President Obama extracted from BP.
    And, despite what the Majority may claim, these are the 
facts. President Obama and Secretary Salazar took action to 
protect the workers. That is what they did. The Gulf had to be 
protected. That is what President Obama did to minimize the 
economic harm to the region from the spill, and to ensure that 
we are drilling again now more safely.
    So, the Majority says they just want to get to the bottom 
of this. They have gotten to the bottom of this. And there is 
no evidence of wrongdoing. The Majority has gotten the answer. 
They don't like the answer. Secretary Salazar will sit here, if 
you ask him. He will tell you he made the decision.
    This woman should not be here today. You should have 
Secretary Salazar here, and he will tell you he made the 
decision. You should have the CEOs of Halliburton and BP and 
Transocean sit here. Because what you should be trying to do is 
get to the bottom of the ocean. You should be trying to find 
out what happened.
    Why were those workers harmed? Why was the environment 
harmed? Why was the fishing industry harmed? What nerve did 
those companies have to short-change the safety procedures? So 
bring them in here, and set them up as examples to let the 
world know it will never happen again in the United States. We 
will know you are serious. We will know you want to get to the 
bottom of the ocean when you have them sitting here.
    But we are going to go through the whole 2 years and that 
is not going to happen. And this woman sits here as, really, 
just a diversion, a red herring. We might as well put an 
aquarium out here, you have got so many red herrings floating 
around. OK? And this woman is just here, unfortunately, as part 
of your plan to have 149 votes on the House Floor for the oil 
and gas industry, and none to help wind and solar, to have a 
vote on the House Floor last year to keep all of the loan 
guarantees--$18 billion for nuclear and for coal--and to zero 
out all of the loan guarantees for wind and solar--and each of 
you voted for that.
    So, you have--Solyndra will be made an example, while the 
United States and Richmond Corporation will continue to get 
$540 billion in a loan guarantee, exactly equal to what 
Solyndra got, and it is already in junk bond status. When is 
the Republican Party going to have the hearings on what is 
really going wrong here?
    And this woman, like the solar industry, is just part of 
not dealing with the real issue, and that is that the oil 
industry recklessly, indifferently came very close to 
destroying the livelihoods of people in the Gulf of Mexico. And 
but for that $20 billion that President Obama extracted from 
that industry, there would have been devastation down there.
    And so, let's bring them in. Let's bring in Secretary 
Salazar. He will tell you why he imposed the moratorium. But in 
the dictionary, the difference between a moratorium and a pause 
is just temporary inaction, temporary delay. It is the same 
definition. You want to fight over that? You do that. But it 
is, oh, so clear, this innuendo, this attempt to divert, 
because you don't want to get to the central issues of what 
this Committee should be all about.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Colorado, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. And could the staff 
please put exhibit 9 up on the screen?
    [Slide shown.]
    Mr. Lamborn. OK. And we talked about this a little bit 
earlier, Ms. Kendall. It says there, in the red box to the 
left--this is Steve Black saying in an email dated May 28th, 
``And thanks for the kind words, Mary, and for your 
participation in so many of the meetings and interviews leading 
up to this report.''
    Why should we not believe Steve Black when he says that you 
participated in the process?
    Ms. Kendall. I attended. I did not participate in the 
process of the 30-Day Report. I did not participate in the 
development of the Executive Summary. I don't know how many 
times I can say that. It is just--that is the fact.
    Mr. Lamborn. So Steve Black was not being accurate when he 
said this?
    Ms. Kendall. He was talking about my attendance at the 
meetings, yes. And I told him that putting together those 
meetings was an enormously impressive effort. It was a 30-day 
effort to get people from industry, scientists, government----
    Mr. Lamborn. OK----
    Ms. Kendall [continuing]. In to talk to us----
    Mr. Lamborn. Excuse me. My time is limited, so we will have 
to go on. Exhibit 8, please.
    [Slide shown.]
    Mr. Lamborn. OK. This is Steve Black again in an email 
dated May 17th. In the upper box, ``Thank you for participating 
on the call with the NAE-identified experts.'' He once again 
thanks you for participating. Why should we not believe his 
words?
    Ms. Kendall. He thanks everyone for participating. It is 
his use of the word ``participate''. I listened.
    Mr. Lamborn. You ``participated on the call today.''
    Ms. Kendall. I don't----
    Mr. Lamborn. How did he even know you were there on the 
call?
    Ms. Kendall. I don't even remember this call. I don't know 
that I participated in this call, quite frankly. But I was 
probably one of the invitees, and so he thanked the invitees 
for participating. And I honestly couldn't tell you if I was a 
part of that call.
    Mr. Lamborn. OK. I am going to switch gears now to the role 
of the Department to turn over documents when there might be a 
privilege. If the Department tells you or the IG's office not 
to disclose documents to Congress, is it the policy of the 
Inspector General to err on the side of the Department, and to 
go along with that request without question?
    Ms. Kendall. Not without question, sir. The Committee has 
requested these documents from the Department itself. And the 
Department has said that they decline to provide them, because 
they implicate important executive confidentiality interests. 
This apparently is a term of art as a precursor to the claim of 
executive privilege. And the previous Administration used this 
very phrase in 2007, when the House Committee on Oversight and 
Government Reform requested documents related to the 2004 death 
of Army Ranger Pat Tillman.
    So, this is a process that I, quite frankly, before this 
knew nothing about. But it is a longstanding process that goes 
back, as I understand it, to the Nixon Administration.
    Mr. Lamborn. So in 26 years you hadn't heard about this 
happening.
    Ms. Kendall. Oh, I have heard about it.
    Mr. Lamborn. OK.
    Ms. Kendall. I have never just been involved in it.
    Mr. Lamborn. OK. Did the Department ever exert executive 
privilege?
    Ms. Kendall. No. The Department has used this term, which, 
as I understand it, implicates executive privilege in the 
process that is a long and complex process that I believe the 
Committee is engaged with the Department in, and should 
continue to engage the Department in.
    Mr. Lamborn. Is it not true, Ms. Kendall, that only the 
President of the United States can exert executive privilege?
    Ms. Kendall. The President himself must assert the 
privilege, but it is usually done through a department head.
    Mr. Lamborn. Was that done in this case?
    Ms. Kendall. It has not been done yet, no.
    Mr. Lamborn. But you went along with their position and did 
not disclose the documents to Congress?
    Ms. Kendall. I have explained as best I can to the 
Committee in my letter, responsive to the subpoena, the reasons 
why we did not turn over the documents. They are not ours--they 
are not our documents, the privilege is not ours to assert, and 
the privilege is not ours to waive.
    Mr. Lamborn. You said in an April 18th letter that promises 
of confidentiality are needed to ensure that Department 
officials cooperate with your office. Are you suggesting that 
if they don't have that promise of confidentiality, that they 
will not cooperate as much?
    Ms. Kendall. I am suggesting that we might not get these 
kinds of documents in the future, if we did not abide by that 
promise of confidentiality.
    Mr. Lamborn. So they needed a promise of confidentiality to 
work with you? Is that what you are saying?
    Ms. Kendall. No, I am saying in regard to documents like 
this, I don't believe that if we released these documents we 
would ever see them again, if we were investigating something. 
And we would be back before, probably, this Committee saying, 
``We can't get these documents,'' and we would all be in the 
same position as the Committee is right now, relative to the 
Department. But we would not have had the benefit of seeing the 
documents ourselves, as the oversight body.
    Mr. Lamborn. OK, thank you for your answers.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Arizona, Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. You know, the 
impugning of the witness's character, her truthfulness, in 
front of the Committee is, as Mr. Lujan said, is not the way to 
be conducting this hearing. And, more importantly, there is no 
basis for those accusations.
    But we are doing all this based on the opinion of a case 
worker who praised the witness first, and then communicated to 
other members in the Department whatever concerns he had. And 
while the Majority wants us to accept this as fact, questioning 
the witness's character, but the case worker we--the Majority 
wants the rest of us to believe that that has got to be a 
pillar of integrity, that there is no hidden political agenda, 
and that the motives of this case worker is as pure as the 
driven snow, that the case worker is a bastion of truth, and 
that is the premise by which we are here today.
    Now, I don't want to impugn this case worker's character. I 
wouldn't do that. But to ask us to proceed on that assumption, 
I think, is asking a lot.
    And, you know, this hearing has kind of been like when I 
was learning English in school, where we had to get the 
distinction between, you know, what is a pause, what is a 
moratorium. That would help us with our diction. And with us 
understanding what is an active participant, what is an 
observer. That was English class. This has nothing to do with 
this hearing.
    And the gentleman brought up what is the difference between 
active observer, active participant. I would suggest that the 
audience here at this hearing are active observers. I would 
suggest that the members of the Committee are active 
participants. I think that is the distinction and that is the 
difference.
    I wanted to ask one question, if I may. Ms. Kendall, 
according to the safety board report, since 1982 OCS leasing 
has increased by 200 percent, and oil production has increased 
by 185 percent. However, staffing resources have decreased by 
36 percent since 1983. The independent BP Commission 
recommended increasing the $10 million per year the oil and gas 
industry paid in inspection fees significantly in order to fund 
Department regulators.
    Despite the Majority's attempt to block an increase in the 
inspection fees charged to offshore oil and gas companies in 
the appropriations bill for the current fiscal years, the 
Department was provided with the authority to collect 
inspection fees up to $62 million to fund the agency. Yet that 
authority will expire at the end of the year, unless it is 
extended.
    Do you think we should give the Department permanent 
authority to collect inspection fees on offshore operators to 
provide a steady, robust funding stream for offshore 
regulators?
    Because, at the end of all this, we are still dealing with 
possibly--with the worst environmental catastrophe that this 
country has seen. And we should not lose sight of that in the 
English lesson that we are having today, or in the attacks on 
the witness.
    Do you believe that that funding has to be permanent, so 
that what processes are in place and processes will be in place 
in terms of staffing and procedures can continue to provide the 
safety oversight that we need?
    Ms. Kendall. Congressman Grijalva, I am not familiar with 
that particular authority. But I do know that when the Safety 
Oversight Board was looking at this issue, there absolutely is 
a need for more Federal presence, in terms of oversight 
inspection and enforcement of the regulations that are in 
place. And if this is one of the vehicles by which that can be 
done, then I would agree with you, yes.
    Mr. Grijalva. Thank you. And thank you, Mr. Chairman. I 
yield back.
    Mr. Markey. Could I just ask?
    Mr. Grijalva. I yield to----
    Mr. Markey. Yes, and I just had one quick question, which 
is the case agent in one email to OIG colleagues saying that he 
was dismayed that the final OIG report did not mention 
requesting interviews with the White House. In fact, his draft 
that you edited did not include language about interviewing the 
White House.
    You said this before, but I want to underscore it. The case 
agent was complaining about things that demonstrably did not 
happen. Is that not true?
    Ms. Kendall. That is correct.
    Mr. Markey. OK. Thank you for saying it again.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Louisiana, Mr. Landry.
    Mr. Landry. Ma'am, I know sometimes we find ourselves in 
precarious situations. So, for the record, there are two things 
that I think need to be fact-checked. Number one, many of the 
victims who died, their families came here and begged for that 
moratorium not to be implemented. I think that is important, 
because that speaks volumes. Because we like to make victims 
out of victims out of victims families. There is a reason for 
it. Number two, no one in the oil and gas industry has access 
to that $20 billion fund. That is a incorrect statement by the 
gentleman from Massachusetts. In fact, they are prohibited, if 
you are in the oil and gas industry, you are prohibited from 
taking part in that $20 billion. And that is a fact.
    And I yield the balance of my time to the gentleman from 
Colorado.
    Mr. Lamborn. Well, I thank the gentleman. Could we show 
exhibit 1 up on the screen, please?
    [Slide shown.]
    Mr. Lamborn. Ms. Kendall, are you aware of this email dated 
September 17, 2010 from Mr. Delaplaine, General Counsel of the 
Office of the Inspector General, to Mr. Hardgrove?
    Ms. Kendall. I need to take a look at it, sir. I don't 
recognize it.
    Mr. Lamborn. Let me quote the highlighted portion there. 
``However, I did take the opportunity to explain our position 
that they do not have a valid basis to keep the requested 
material from us, as it could not fall under the executive 
privilege doctrine.''
    And then the email goes on to explain that there was no 
decision pending for the President to make, as the moratorium 
decision had already been made. The only issue being discussed 
was how to word an Executive Summary.
    Are you familiar with either this email or the thinking 
contained in this email?
    Ms. Kendall. I am--at the moment, no. I don't--I obviously 
was not a recipient of this email, and I am not sure what this 
email refers to.
    Mr. Lamborn. What is the role of Mr. Hardgrove?
    Ms. Kendall. Mr. Hardgrove is our Chief of Staff.
    Mr. Lamborn. And does he work for you?
    Ms. Kendall. Yes, he does.
    Mr. Lamborn. So he knew this, apparently.
    Ms. Kendall. Apparently.
    Mr. Lamborn. Did you know this?
    Ms. Kendall. I have told you I don't know what this email 
is about.
    Mr. Lamborn. Well, if you look at the highlighted portion, 
according to Mr. Delaplaine, the position is that they do not 
have a valid basis to keep the requested material from us, as 
it could not fall under the executive privilege doctrine.
    Ms. Kendall. I guess what I am saying is I don't know what 
the requested material is that he is referring to.
    Mr. Lamborn. I believe it is the 13 documents that are at 
issue.
    Ms. Kendall. I don't know that. This was back in 2010. And 
I don't believe that the 13 documents had been identified at 
that point.
    Mr. Lamborn. I believe that these are the Steve Black 
emails.
    Ms. Kendall. They may be; I don't know.
    Mr. Lamborn. But are you aware of the doctrine that after a 
decision has been made, that there is no ability of the 
Executive Branch to assert executive privilege?
    Ms. Kendall. No, I am not. I don't know what this email 
means, quite frankly.
    Mr. Lamborn. Did Mr. Hardgrove ever talk to you about this 
email, or the contents of it?
    Ms. Kendall. I don't remember our discussing it, no.
    Mr. Lamborn. Did Mr. Delaplaine ever talk to you about this 
email or the contents of it?
    Ms. Kendall. You know, we have had so many discussions, I 
don't know if he talked to me about this email or the doctrines 
relating to it. I can't tell from this email what it is about.
    Mr. Lamborn. Do you agree with this privilege--excuse me, 
with this explanation of executive privilege? This is the 
General Counsel of the Office of the Inspector General.
    Ms. Kendall. I don't think it is talking about executive 
privilege. Honestly, I am looking at it for the first time, and 
I am not sure what it is talking about.
    Mr. Lamborn. In parentheses, ``There was no decision 
pending for the President to make, as the moratorium decision 
had already been made.''
    Ms. Kendall. I see that. Again, I don't know what documents 
we are talking about here.
    Mr. Lamborn. We have had access to this for months. Is this 
the first time you believe that you have seen this?
    Ms. Kendall. Yes. I believe it is the first time I have 
seen this email.
    Mr. Lamborn. And you don't know the discussion that is 
going on here about executive privilege and when it ends, once 
a decision has been made?
    Ms. Kendall. No, I don't know what this is talking about.
    Mr. Lamborn. Thank you. I yield back, Mr. Chairman.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentlelady from Guam, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. Ms. 
Kendall, the case agent also wanted to interview Secretary 
Salazar. But that would be very unusual. Is that correct?
    Ms. Kendall. It would be.
    Ms. Bordallo. Do you know if the Secretary was willing to 
be interviewed?
    Ms. Kendall. I don't know. But there was no indication that 
the Secretary had anything to do with the editing of the 
Executive Summary.
    Ms. Bordallo. I see. Mr. Chairman, I want to follow up a 
little on what our Ranking Member Markey was commenting on. And 
I certainly agree that, you know, if we really want to get to 
the bottom of something like this, we have got to go to the 
top. We can't keep bringing in people--Ms. Kendall, I admire 
your composure. You have been sitting here before us being 
grilled, under fire, since 10:00 this morning. And you know, I 
don't know. I certainly don't like to see anybody harassed like 
that.
    But I would like to hear from you, Mr. Chairman. Did this 
Committee--did you ever request testimony from Secretary 
Salazar? And why aren't we hearing from him?
    The Chairman. Would the gentlelady yield?
    Ms. Bordallo. Yes, I will yield.
    The Chairman. I had a conversation with the Secretary. But 
if anybody here believes I wouldn't want the Secretary here, 
then they are sadly mistaken. We had a hearing the week before 
last. And when I asked the Secretary to come down on the 
surface mining, and the Secretary did not.
    I advised the Secretary that if he wanted to come, he 
should expect to be open for questions on a number of issues, 
not only confined to this issue, but other issues because we 
have subpoenaed him. And there are many, including me, that 
feels that there has not been a response from the Secretary. 
And so I advised him. I said that, you know, he could come 
down, but ``be prepared to potentially face questions regarding 
why you haven't supplied the subpoenas, and potentially issues 
of maybe going into contempt and why you should not be held in 
contempt.''
    Now, that was the conversation I had with the Secretary. 
That ended that conversation, and there was no other discussion 
regarding his coming here. But yes, there was a discussion, and 
it is as I just described to you.
    Thank the gentlelady for yielding.
    Ms. Bordallo. So, Mr. Chairman, then what you are saying is 
that, unofficially, you just had a conversation with him. This 
wasn't an official request to come before the Committee to be 
subpoenaed to speak on several issues.
    The Chairman. Will the gentlelady yield?
    Ms. Bordallo. Yes.
    The Chairman. The Secretary offered that suggestion to me, 
and I responded to him, as I just mentioned, and that was the 
end of any further discussion on his coming in front of me.
    Ms. Bordallo. Well, I have a comment. I just understood 
here that we have not issued a subpoena, as you had said, for 
the Secretary to testify. So it is my understanding that he is 
willing to appear. So can we call him in?
    The Chairman. Like I said, the conversation that we had and 
the exchange that we had with the Secretary was that if he 
wants to come in he should be prepared to have discussions far 
beyond here, this issue only. It would probably go to the 
surface mining issue. It would probably go to the issue of why 
there hasn't been a response to all of the subpoenas that have 
been issued by this Secretary. And a discussion on whether he 
would want to face questions that may lead to why he should not 
be held in contempt.
    Now, those are all issues that I suggested to the Secretary 
when he suggested that he may come forward. I left the 
conversation at that, and that has been the end of that 
conversation.
    Ms. Bordallo. Well, as a member of the Committee, I am 
suggesting that we ask him to appear. He apparently is willing. 
So if I could make that request.
    And, second, we could ask the CEOs of oil companies to 
appear, as well. Have we done that?
    The Chairman. You know, I find it ironic--if the gentlelady 
would yield----
    Ms. Bordallo. Yes.
    The Chairman. I find it ironic that that issue keeps coming 
up. And I will mention to the gentlelady and also other members 
of the Committee that we have had executives of those companies 
in front of this Committee, in fact, going back to the last 
Congress. And in the same vein that while we have maybe not had 
the presence, although we have, in front of this Committee, we 
have not gotten the cooperation, I might add, if you compare 
the information that we received from those companies compared 
to the information we have gotten from this Administration, 
there is a huge, huge divide as to what they have provided to 
us.
    So, I thank the gentlelady for yielding.
    Ms. Bordallo. Mr. Chairman, just one quick question here. 
You said the top people. I am talking about the CEOs.
    The Chairman. Oh, we have had the president of some 
companies----
    Ms. Bordallo. We have had the CEOs here----
    The Chairman [continuing]. Of companies that have come in 
here.
    Ms. Bordallo. Well, I suggest, if we really want to get to 
the bottom of this, that we have another----
    The Chairman. The time of the gentlelady has expired, and I 
will simply respond to this. The issue here that we are 
pursuing is because of a moratorium that dealt with shallow 
water, not deep water, where the BP is. There is a distinction 
between the two.
    The Chair recognizes the gentleman from California, Mr. 
McClintock.
    Mr. McClintock. Thank you, Mr. Chairman. I would like to 
get back to the Klamath Basin for a second. It might not be as 
visually graphic, but it is not insignificant. It is the loss 
of four hydroelectric dams, 155 megawatts of hydroelectricity, 
loss of a fish hatchery that produces 5 million salmon smolts a 
year, a billion dollars of taxpayer and ratepayer costs, all 
driven, we are told, by the best available science.
    Now, we spent nearly all 5 minutes allocated to my first 
round of questioning, Ms. Kendall, with you denying that you 
knew anything about a complaint by the Bureau of Reclamation's 
scientific integrity officer, Dr. Paul Houser, documenting 
intentional falsification of scientific data related to the 
Klamath Basin all to drive the decision to a predetermined 
conclusion. In the final seconds of my allotted time, you 
appeared to have had a recollection when I asked about a 
scientific integrity case provided on your office's own 
manifest entitled, ``Finkler, Kira, et al.''
    So, with your memory freshly restored, I would like to 
know, first and foremost, if we at least now established that 
the scientific integrity case entitled ``Finkler, Kira, et 
al,'' status closed, final report not available, listed on your 
office's manifest, involves the complaint by Dr. Houser.
    Ms. Kendall. I know it involves Dr. Houser. I don't know if 
it involves his complaint.
    Mr. McClintock. All right. Then can you tell me what--so 
the Office of the Inspector General then did know about his 
complaint. And my next question to you is what did the 
Inspector General's office do to investigate this most detailed 
complaint by the scientific integrity officer of the Bureau of 
Reclamation?
    Ms. Kendall. Congressman, I would have to get back to you 
on that, because I simply don't know the answer to it.
    Mr. McClintock. Then you obviously can't tell me what you 
discovered from that investigation, which is not an 
insignificant or insubstantial matter.
    Ms. Finkler, whose name is on the manifest, was Dr. 
Houser's boss. When Dr. Houser raised these concerns 
internally, her response was to fire him. She was an employee 
of Trout Unlimited, which is an interested party to the Klamath 
Basin agreement. She did not recuse herself from being involved 
in these discussions, and in fact, fired the whistle blower 
hired by the Bureau of Reclamation to ensure the scientific 
integrity of the data that is driving this entire proposal. Her 
response was to fire him.
    Now, doesn't it strike you as significant that the official 
who fired Dr. Houser was precisely the same official that he 
accused of official misconduct in falsifying this data, and who 
had an obvious and glaring conflict of interest?
    Ms. Kendall. Congressman, I am listening to what you are 
saying, but it doesn't help me because I really don't know 
about this case.
    Mr. McClintock. You are the watch dog. You are responsible 
for assuring the integrity of the scientific data that is 
driving these policy proposals.
    Ms. Kendall. Congressman----
    Mr. McClintock. Why aren't you--why--you know----
    Ms. Kendall. I have many----
    Mr. McClintock. Where is the outrage?
    Ms. Kendall. I have many people on my staff who work these 
issues on behalf of the Office of Inspector General. I 
apologize. I don't know the details about this one.
    Mr. McClintock. Well, you have got a row of folks behind 
you. Do any of them know?
    Ms. Kendall. Congressman, we would be glad to get back to 
you and provide details about this. I simply don't know them 
today.
    Mr. McClintock. Well, I will tell you what I would ask for, 
is all of the documents related to Dr. Houser's complaint. I 
would like to know why was the case closed. Why is there no 
report available? I assume you cannot provide me information on 
any of these questions.
    Ms. Kendall. I don't have the information today, no.
    Mr. McClintock. Well, Mr. Chairman, I think that this is 
significant enough, and this omission is glaring enough, to 
call for a separate hearing on this subject. As I said, it is 
not an insignificant matter. It has huge fiscal and economic 
and environmental ramifications for the entire Pacific 
Northwest. It all hinges on what we are told is the best 
scientific data when the scientific integrity officer has been 
blowing a whistle warning us that that data has been 
deliberately corrupted. And the Inspector General, so far as I 
can tell at this hearing, has done precisely nothing.
    We need to look into this. And we need to look into this 
before any further activity is taken on the Klamath. And I 
think that we also ought to get in our possession----
    Mr. Markey. Mr. Chairman----
    Mr. McClintock [continuing]. All of the documents----
    Mr. Markey [continuing]. Parliamentary inquiry.
    Mr. McClintock [continuing]. Related to----
    Mr. Markey. Parliamentary inquiry, Mr. Chairman.
    The Chairman. The gentleman will stage his inquiry.
    Mr. Markey. Yes. The rules of this Committee, Mr. Chairman, 
require that members contain their questions to the subject 
matter of the hearing. Those are the rules of this Committee.
    Mr. McClintock. Well----
    Mr. Markey. Did your invitation--Mr. Chairman, 
parliamentary inquiry--did your invitation, Mr. Chairman, 
invitation letter to Ms. Kendall, notify her that this Klamath 
issue would be a topic for today? And, if not, then I would ask 
that this line of questioning be ruled out of order. Because 
there is an implication being made by this gentleman that Ms. 
Kendall is not answering his questions, when she was invited 
here, under the rules, to answer a whole other set of subject 
material. And under our rules, she was coming here knowing that 
other material could not be put before her.
    Mr. McClintock. Mr. Chairman----
    Mr. Markey. So I would just ask for a ruling on that.
    Mr. McClintock. Mr. Chairman?
    The Chairman. The gentleman asked a parliamentary inquiry 
into whether the gentleman from California's line of 
questioning was within the scope of this hearing. And I would 
tell the gentleman from Massachusetts that the title of the 
hearing is as such: ``Oversight of the Actions, Independence, 
and Accountability of the Acting Inspector General of the 
Department of the Interior.''
    And then, the invite letter goes on to talk about the 
conduct of the Inspector General, and four specifically, 
independence and effectiveness of the Inspector General in 
acting capacity, and then five--on the invite letter of the 
second paragraph--``and other matters''. And the gentleman from 
California is talking about other matters, so it falls within 
the scope----
    Mr. McClintock. Mr. Chairman?
    The Chairman. It falls within the scope of the hearing 
today.
    The gentleman from----
    Mr. Markey. Mr. Chairman?
    Mr. McClintock. Mr. Chairman, I would also--because I still 
had time remaining before the gentleman from Massachusetts 
interrupted me--point out that the Klamath Basin issue was 
raised in the Chairman's letter to Ms. Kendall dated May 30, 
2012, and was referred to in her letter back to the Chairman 
dated July 20th. So this is not unexpected for her. It was 
raised in the letter. She responded specifically on this issue 
in the letter back to the Committee, which I have already asked 
to be entered into the record.
    I would suggest the gentleman from Massachusetts read his 
briefings more carefully before he comes to the hearing.
    The Chairman. The gentleman had some time, and I am 
anticipating he had approximately 30 seconds left in his time. 
Does the gentleman yield back?
    In response, then, to the Ranking Member, this falls with--
the line of questioning from the gentleman from California 
falls in line with the invitation to the Acting Inspector 
General.
    The Chair recognizes the gentleman from the Northern 
Marianas.
    Mr. Sablan. Thank you very much, Mr. Chairman. Mr. 
Chairman, it is going on 4 years that I have served on this 
Committee there are--you know, we take votes, we have hearings. 
There are times when I agree with the other side, and there are 
times when I disagree with my side. And there are times when I 
take a vote that bears hard on me.
    The vote we had yesterday, Mr. Chairman, was, I think, a 
very difficult one for me, because I wanted to vote no. Because 
I thought that there was still a chance to have more 
conversations with the Department of the Interior, rather than 
issue the subpoena. I also didn't think yesterday that the 
extraordinary effort has been exhausted.
    And the Chairman knows I have a great deal and healthy 
respect for him, and I still do. I just--last night, you know, 
just before I went to bed, thinking about what we did yesterday 
also, Mr. Chairman, and just couldn't find comfort that we did 
that. But we did take a vote. We are issuing subpoenas.
    And I would also like very much to bring the Secretary of 
the Interior here. If we need the answers here, we need the 
Secretary of the Interior to give us the answers. And I would 
encourage and urge the Chairman to include the Secretary.
    And at this time I yield my remaining time to the Ranking 
Member, Mr. Markey.
    Mr. Markey. I thank the gentleman very much. And again, let 
me just state for the record we have not invited the CEOs of 
BP, Transocean, or Halliburton to sit here. This is the 
greatest crime in the history of America against the 
environment. Bringing in mid-level officials at these companies 
is not taking this issue seriously.
    So, when you bring in the CEOs of these companies and you 
are staring them down, you are getting the answers, then it is 
serious. This is not serious.
    Ms. Kendall, Mo Udall, by the way, Mo Udall, the great 
Chairman of this Committee for so many years, he used to have a 
saying. He used to say, ``Everything has been said, but not 
everyone has said it.''
    So, on their side they keep saying the same things over and 
over again. You keep giving the same answers. And they hate the 
answers. They just hate these answers, because at this point we 
still don't have any understanding of what it is that they are 
saying went wrong. This is executive privilege, it is 
controlled by the President. Everyone can have an opinion on 
executive privilege, but the President, the Secretary, they 
exercise the decision on executive privilege, not you. It is 
not your decision.
    Isn't there a point that you have to ask, you know, again, 
what is the legal basis for asking questions?
    Ms. Kendall, are you familiar with the works of Franz 
Kafka? Well, in Kafka's ``The Trial,'' a man is charged with a 
crime without being told the process of the trial, or even what 
he is being charged with. Ms. Kendall, you seem to be in a 
similar situation. At this point, I don't even know what you 
are being attacked for. I still can't figure it out. Is it that 
you are the IG? Is it the Klamath River Basin hydro project 
unrelated to this hearing? Is it Secretary Salazar's decision 
to issue the moratorium? Or is it just that Barack Obama is 
President, which I suspect is what is at the heart of all of 
this?
    But for you to be sitting here for hour after hour without 
anything thus far that I can ascertain is something that they 
can point to you and say that you did wrong, I still am waiting 
for that sentence to be uttered, other than a McCarthyesque set 
of questions that are asked without any evidence of anything 
that has not already been conclusively proven to not be true.
    So, this is the essence of what we have here, OK? Those who 
are guilty, the CEOs of these companies, they are not here. 
Those who have, really, the responsibility to make the 
decisions, even at the agency, we can bring in the Secretary. 
But everything else is just kind of a sideshow. You know? Let's 
have the real answers. And let's have the real showdown here on 
what happened in the Gulf of Mexico with the CEOs of these 
companies. But until you invite those CEOs, this is not a 
serious investigation at all. And the absence of any specific 
charges that you can make that make any sense is evidence of 
that.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Florida, Mr. Southerland.
    Mr. Southerland. Thank you, Mr. Chairman. Along those lines 
right there, as far as CEOs--and clearly the Secretary of the 
Interior is a CEO--the Department issued over 700 citations to 
the owners and operators of the Macondo Well, Deepwater 
Horizon. As the Acting IG, could you tell me about the 
investigation that you performed, or your department performed 
on the Department for their inaction after issuing those 700 
citations?
    Ms. Kendall. I am not sure what investigation you are 
talking about.
    Mr. Southerland. Well, wait a minute. The Department issued 
700 citations to the owners--and I want to make sure the 
Ranking Member catches this, Mr. Chairman--the 700 citations 
were issued to the owners of the Macondo Well and the Deepwater 
Horizon from the Department. And I ask you about the 
investigation into the inaction of--you got a problem. And you 
are telling me that you are not aware of an investigation, or--
--
    Ms. Kendall. Well, I am aware of a number of 
investigations, but I am not aware----
    Mr. Southerland. No, no, no. I am talking about 
specifically to the Department for issuing 700 citations and 
not moving it a step farther, because we are always told that 
government is here to protect the people.
    Ms. Kendall. And I am telling you I don't know about an 
investigation about that.
    Mr. Southerland. Mr. Chairman, I find it absolutely 
amazing. And the Ranking Member talks about bringing CEOs in 
here. And, by the way, I asked the CEO of the Department of the 
Interior last year, Mr. Chairman. I asked him that very 
question, and was given, you know, absolutely no satisfaction 
that the Department accepted any responsibility that it failed, 
after you know you had a problem, that there is no 
responsibility, no personal responsibility, and no 
responsibility for the Department.
    And now I ask the IG. Certainly after 700 citations were 
issued, what about the investigation? Clearly, there must have 
been one. Clearly, there was the--because we have heard today. 
We have seen Webster's dictionary. And Webster--I will tell you 
the definition of ``incompetence'' is lacking the qualities 
needed for effective action and unable to function properly. 
The synonyms, according to Webster, ``incapable, inept, unfit, 
unqualified, unable.'' And yet we have a Department that I 
think has demonstrated that to perfection--700 citations. And 
we have an IG department that hasn't even done an investigation 
on that. That is the very definition, according to Webster.
    And so, we have tried. We brought the CEO in here of the 
Interior, and they have not answered that question. And so 
there, now we know there is no personal responsibility. And I 
am amazed that that is not a smoking gun for this body. And I 
find that I agree. I agree with the Ranking Member. And I am 
amazed that they are not concerned, because at no point in time 
when the Secretary of the Interior was here, not one single 
question from the Minority looking into that issue. And it 
undermines, really, the validity and the purpose of trying to 
understand.
    So, go to the bottom of the ocean. Well, we have tried to. 
And, unfortunately, we have--we are--you know, there is--we are 
not catching anything there. And so I just--I find that there 
should be more examination. And that is your role, as the IG.
    And why would there not be? With my remaining time left, 
why would there not be? Is that not problematic?
    Ms. Kendall. Because I am not familiar with the 700 
citations, I could only speculate. But I would assume that 
BOEMRE, which was the succeeding agency after MMS was split in 
two, and either BOEM or BSEE now would be the appropriate body 
to conduct such an investigation, or conduct an internal 
investigation. And actually, I believe BSEE is actually doing 
that, as we speak.
    Mr. Southerland. Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman for yielding back. I 
want to conclude this hearing by thanking you, Ms. Kendall, for 
being here. I know it was difficult. But we that sit on this 
panel, because of what we have chosen to do, find situations 
sometimes that are difficult, also. But that comes with the 
responsibility of self-government. You are in a position of a 
great deal of importance. As I mentioned in my opening 
statement, I have some questions and certainly members of this 
Committee have questions about the independence which led to a 
decision that did cause economic harm. And nobody disputes 
that.
    Nobody disputes the fact that the initial incident caused 
economic harm. But we do think it is important that the people 
get the facts. And the simple fact that the Executive Summary 
caused such an immediate backlash from the peer review group, 
where in some cases they felt that they were being used, I 
think is very important that we get to the bottom of why this 
happened.
    And that is what we are trying to ascertain. Whether you 
like it or not, you were caught in that discussion. And I 
think--as I have said several times--that independence was 
somewhat compromised is something that this Committee needed to 
look into. And that was the reason for this hearing.
    I am not sure that we have gotten all the answers. I 
certainly have some questions in my mind. But I do very much 
appreciate your participation. And the only thing that I could 
offer you is that those of us probably at some time in our 
political lives have faced similar situations that you have, 
and so there is empathy from us to you. But recognize that that 
responsibility, it is part of your job. And that is part of 
self-government. That is what makes it difficult.
    So, if there is no more business coming before the 
Committee, the Committee will stand adjourned.
    [Whereupon, at 1:12 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [A memorandum submitted for the record by Dr. Paul R. 
Houser, Bureau of Reclamation, U.S. Department of the Interior, 
follows:]

DATE: February 24, 2012
TO:    Office of the Executive Secretariat and Regulatory Affairs
       Department of the Interior, 1849 C Street, N.W., Mail Stop 7328
       Washington, DC 20240
FROM: Dr. Paul R. Houser
       Science Advisor, Bureau of Reclamation, Washington D.C.
       Scientific Integrity Officer, Bureau of Reclamation, Washington 
D.C.
       1849 C Street NW
       Washington DC 20240-0001
       and
       Professor, George Mason University
       240 Research Hall, MSN: 6C3
       4400 University Dr., Fairfax, VA 22030
       (301)-613-3782
       <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b3c3c1dbdcc6c0d6c1f3d4ded2dadf9dd0dcde">[email&#160;protected]</a>
SUBJECT:  Allegation of scientific and scholarly misconduct and 
reprisal for a disclosure concerning the biased summarization of key 
scientific conclusions for the Klamath River dam removal Secretarial 
determination process.
    SUMMARY: With this letter, I submit two allegations of scientific 
and scholarly misconduct and reprisal intended to compromise scientific 
integrity for a disclosure concerning the Department of the Interior's 
biased (falsification) summarization of key scientific conclusions for 
the Klamath River dam removal Secretarial determination process. These 
allegations violate different parts of the 305 DM 3 Scientific 
Integrity Policy, but are being submitted together, as their possible 
motivation and topics are related. In my role as Science Advisor and 
Scientific Integrity Officer for the Bureau of Reclamation, I provide 
my comments at various points during this presentation.
        1.  Intentional Falsification: Motivated by Secretary Salazar's 
        publically stated 2009 intention to issue a Secretarial 
        determination in favor of removing four dams on the Klamath 
        River (due on March 31, 2012), the Department of the Interior 
        has followed a course of action to construct support for such 
        an outcome. An example of this intentional biased 
        (falsification) reporting of scientific results is contained in 
        the September 21, 2011 ``Summary of Key Conclusions: Draft EIS/
        EIR and Related Scientific/Technical Reports'' [attachment 1]. 
        Other examples provided by third parties are provided in the 
        attached documents.
                a.  Person(s) alleged to have committed misconduct:
                         i.  Unreported author(s) of report ``Summary 
                        of Key Conclusions: Draft EIS/EIR and Related 
                        Scientific/Technical Reports''
                        ii.  Department of the Interior officials
        2)  Intentionally circumventing policy that ensures the 
        integrity of science and scholarship, and actions that 
        compromise scientific and scholarly integrity: On September 15, 
        2011,1 expressed concern via written disclosure relating to the 
        scientific integrity of a draft press release on the draft 
        environmental analysis for removing four Klamath River dams 
        [attachments 2,3], and via verbal disclosure about the 
        integrity of the larger Klamath River dam removal Secretarial 
        determination
    PacifiCorp's Klamath Hydroelectric Project 2082 (inclusive of the 
J.C. Boyle, Copco 1, Copco 2, and Iron Gate dams) led willing basin 
stakeholders to come to agreement on the Klamath Hydroelectric 
Settlement Agreement (KHSA) and the Klamath Basin Restoration Agreement 
(KBRA).
    The KHSA is a multi-party agreement that, if fully implemented, 
would result in the removal of the Four Facilities within the Klamath 
Hydroelectric Project. Signatories of the KHSA, with the exception of 
the Federal government and PacifiCorp, also signed the KBRA. The 
Federal government is not able to sign the KBRA until Congress passes 
Federal legislation authorizing the agreement. The KBRA includes 
interrelated plans and programs intended to benefit fisheries 
throughout the basin, water and power users in the upper basin, 
counties, Indian tribes and basin communities. KBRA fisheries programs 
include extensive habitat restoration, improvements to water flow and 
quality, and a fish reintroduction program in the upper basin. Full 
implementation of the KBRA requires an affirmative Secretarial 
determination on the removal of the four dams, and will likely cost 
taxpayers and ratepayers in excess of $1B to implement.
Department of the Interior Scientific Integrity Policy:
    The Department's Manual (305 DM 3) defines scientific and scholarly 
misconduct as:
        (1)  Fabrication, falsification, or plagiarism in proposing, 
        performing, or reviewing scientific and scholarly activities, 
        or in the products or reporting of the results of these 
        activities. (Federal Policy on Research Misconduct, 65 FR 
        76260-76264, December 6, 2000.) Misconduct also includes: (a) 
        intentionally circumventing policy that ensures the integrity 
        of science and scholarship, and (b) actions that compromise 
        scientific and scholarly integrity. Scientific and scholarly 
        misconduct does not include honest error or differences of 
        opinion.
        (2)  Fabrication, falsification, or plagiarism in the 
        application of scientific and scholarly information to decision 
        making, policy formulation, or preparation of materials for 
        public information activities.
        (3)  A finding of scientific and scholarly misconduct requires 
        that:
                a.  There be a significant departure from accepted 
                practices of the relevant scientific and scholarly 
                community.
                b.  The misconduct be committed intentionally, 
                knowingly, or recklessly
                c.  The allegation be proven by a preponderance of 
                evidence.
    305 DM 3 indicates that scientific misconduct must be an 
intentional and significant departure from accepted practices of 
scientific community that is proven by evidence, such as intentional 
fabrication, falsification or plagiarism, or actions that intentionally 
circumvent or compromise the policy.
    ALLEGATION I: Intentional Falsification: Motivated by Secretary 
Salazar's publically stated intention to issue a Secretarial 
determination in favor of removing four dams on the Klamath River (due 
on March 31, 2012), the Department of the Interior has likely followed 
a course of action to construct such an outcome. In 2009, Secretary 
Salazar stated that the proposal to remove the Klamath River dams  
``will not fail'', and on September 19, 2011, Ms. Kira Finkler,  Deputy 
Commissioner for External and Intergovernmental Affairs, told me 
directly that ``the Secretary wants to remove those dams''. This 
intention has motivated Department of the Interior officials to 
``spin'' or incompletely report the scientific results towards a more 
optimistic scientific story that supports dam removal.
    An example of this intentional falsification is contained in the 
September 21, 2011 ``Summary of Key Conclusions: Draft EIS/EIR and 
Related Scientific/Technical Reports'' [attachment 1]. This summary 
intentionally distorts and generally presents a biased view of the 
Klamath River dam removal benefits. It intends to present only the 
positive, without the uncertainties or negatives. This is ascertained 
by
    Other examples of science integrity issues provided by third 
parties are provided in attached documents. These examples should also 
be considered when evaluating the scientific integrity of the Klamath 
River dam removal Secretarial decision process.
        1)  February 7, 2012 Siskiyou County notice of intent to file 
        suit [attachment 5],
        2)  January 31, 2012 Siskiyou County comments on report 
        [attachment 6],
        3)  July 12, 2011 Siskiyou County KBRA and KHSA letter 
        [attachment 7].
        4)  November 11, 2011 Letter from Tom Connick [attachment 28],
        5)  July 21, 2011 Science, Secrecy and Salmon Restoration 
        [attachment 29],
        6)  December 27, 2011 Klamath dams: County's comments in by 
        John Bowman, Siskiyou Daily News, December 27, 2011 [attachment 
        30],
    ALLEGATION II: Intentionally circumventing policy that ensures the 
integrity of science and scholarship, and actions that compromise 
scientific and scholarly integrity.

    305 DM 3 establishes a scientific code of conduct (section 3.7). 
Specifically, for all Departmental employees, volunteers, contractors, 
cooperators, partners, permittees, leasees and grantees, the code 
requires communication of the results of scientific and scholarly 
activities clearly, honestly, objectively, thoroughly, accurately, and 
in a timely manner (3.7.A.2), not intentionally hindering the 
scientific and scholarly activities of others (3.7. A.6), and clearly 
differentiating among facts, personal opinions, assumptions, 
hypotheses, and professional judgment in reporting the results of 
scientific and scholarly activities and characterizing associated 
uncertainties in using those results for decision making, and in 
representing those results to other scientists, decision makers, and 
the public (3.7.A.7). Additionally for scientists and scholars, the 
code requires providing constructive, objective, and professionally 
valid peer review of the work of others, free of any personal or 
professional jealousy, competition, non-scientific disagreement, or 
conflict of interest (3.7.B.6). And finally, for decision makers, the 
code requires supporting the scientific and scholarly activities of 
others and not to engage in dishonesty, fraud, misrepresentation, 
coercive manipulation, censorship, or other misconduct that alters the 
content, veracity, or meaning or that may affect the planning, conduct, 
reporting, or application of scientific and scholarly activities 
(3.7.C.1), and to adhere to appropriate standards for reporting, 
documenting and applying results of scientific and scholarly activities 
used in decision making (3.7.C.3).
    On September 15, 2011,1 expressed concern via written disclosure 
relating to the scientific integrity of a draft press release on the 
draft environmental analysis for removing four Klamath River dams, and 
via verbal disclosure about the integrity of the larger Klamath River 
dam removal Secretarial determination process. My disclosure was never 
directly addressed, and supervisors have enacted and used 1-year 
probationary status to enact reprisal culminating in the termination of 
my employment (effective February 24, 2011). The details leading to the 
termination show a pattern of hindering and not being supportive or 
honest about the scientific integrity process; the details themselves 
are not the scientific integrity issue but are rather a case of 
subsequent reprisal that show intentional actions that compromise the 
scientific and scholarly integrity codes called out above. Below I 
outline the actual disclosure, and subsequent reprisal. with critical 
uncertainties and caveats, so that the Secretarial determination can be 
made without scientific bias. This Klamath dam removal Secretarial 
determination is reported to have a cost to the public (taxpayers and 
ratepayers) in excess of $1B, so a misinformed or premeditated decision 
could be a gross waste of funds.
Direct Response to Disclosure:
    I received no direct response or follow-up on my disclosure from 
Mr. Fletcher or Mr. Carter. However, the tone and bias of the final 
press release scientific reporting was improved, and the title was 
changed [attachments 1, 2, and 3]. My specific disclosure comments, 
which primarily addressed issues with the Attachment: Summary of the 
major findings and a schedule for public hearings, were not addressed 
in the final release.
    When my supervisor, Ms. Finkler, returned to the office on 
September 19, 2011,1 discussed the issue with her, and she expressed 
concern that I chose to document the disclosure via Email. She cited 
concerns about creating discoverable records that could be subject to 
FOIA for this contentious issue, and pointed out to me that that ``the 
Secretary wants to remove those dams''. In subsequent discussions with 
Ms. Finkler on this issue, she told me that she thought the press 
release and related materials were unbiased, but she also conceded that 
she had not reviewed the underlying documents, including the expert 
panel reports.
Reprisal for Disclosure:
    Following my disclosure related to the Klamath Dam Press release 
[attachment 10], I faced systematic reprisal on several fronts. These 
include, enacting and using a 1-year probationary period to issue 
threats of termination, issuing a low performance rating, denying 
travel, denying training and executive development, denying mentoring, 
and termination of my position.
    Performance Appraisal: On October 27, 2011, my supervisor, Ms. 
Finkler, presented me with a minimally successful performance rating. 
She invited Mr. David Murillo, Reclamation Deputy Commissioner for 
Operations to the meeting as a witness. Areas identified as being below 
fully successful were as follows [attachment 12]:
        1)  Needs to pay closer attention to detail when submitting a 
        written product. For example, he submitted a memo to the 
        Commissioner that still was labeled ``draft'' and had no date 
        on it. He also needs to work on his writing--he needs to take 
        the time to review the substance of his written products more 
        carefully, organize Information in a logical way and make the 
        final product easy to read.
        2)  Needs to make sure he responds in a timely way to requests 
        from me and follows directions.
        3)  Needs to work on contributing to a positive workplace that 
        supports the organization's missions and goals.
        4)  Needs to better engage in strategic planning, for example, 
        he needs to proactively suggest ways he can add value to 
        various priorities rather than waiting for Instructions.
        5)  Needs to work on using sound judgment to make effective 
        decisions, for example, he should not assume, and take action 
        on such assumption, that his input has been ignored prior to 
        knowing the final decision.
    The review involved extensive discussion of my September 15, 2011 
disclosure, and was clearly the subject of performance items 2,3 and 5. 
On point 2) Ms. Finkler felt that I did not follow Mr. Fletcher's 
directions (to not send him my disclosure in Email), when I chose to 
Email the disclosure to Ms. Finkler. I had intentionally decided to 
Email the disclosure to Ms. Finkler to make sure that the situation was 
properly documented and transparent. On point 3), Ms. Finkler felt that 
my disclosure actions were not in support of the organization's mission 
and goals (i.e. Secretary Salazar's desire to remove the four Klamath 
River dams). Also, she felt that my disclosure did not contribute to a 
positive workplace and showed that I was
    It is quite clear that at the time of the disclosure, my supervisor 
decided to restrict access to travel, in an apparent attempt to reduce 
my effectiveness, which would further her goal of using the 
probationary period to terminate my position.
    Training: On November 29, 2011 I finalized a standard Executive 
Professional Development plan [attachment 22], which was focused on the 
learning and improvement goals outlined in my performance review 
[attachment 12]. This plan was carefully developed in close 
coordination with Ms. Norma Martinez, Reclamation's Learning Officer. 
Ms. Finkler signed the plan without even reading or discussing its 
details. I presented a plan for implementing this training to Ms. 
Finkler on January 11 [attachment 23], which she said she would review 
later, but then disapproved at a subsequent meeting, citing budget 
concerns. By denying training in the very areas that were cited for 
needing improvement in my performance plan, Ms. Finkler further 
undermined my success. This action further illustrates that Ms. Finkler 
did not intend to give me an opportunity for improvement, having 
decided at the time of disclosure to proceed towards termination.
    Mentoring: Based on the establishment of a probationary period for 
my position on September 29, 2011 [attachment 15], and Ms. Finkler's 
offer of ``assistance which will better enable you to meet the 
requirements of the position'' in the November 10, 2011 letter of 
concern [attachment 17], on November 10, 2011,1 requested that Ms. 
Finkler provide me written guidance on how she would evaluate success 
in my probationary period. Ms. Finkler indicated that she had given me 
all the guidance I needed in the letter of concern. In summary, the 
letter of concern essentially says that one more incident of using poor 
judgment or failing to listen and follow directions will result in 
termination during the probationary period,
    Between the November 10, 2011 and January 24, 2012,1 met with Ms. 
Finkler seven times at regularly scheduled weekly check-in meetings 
(11/15/11,11/23/11,11/29/11,12/6/11,1/11/12,1/18/12, and 1/24/12). At 
each meeting I asked Ms. Finkler how I was performing, and each time 
she said ``you are doing OK''. I also asked at each meeting how I can 
improve, and she always replied that she could not think of anything.
    Further, to better engage in strategic planning, and proactively 
suggest ways that I could add value to various priorities (as pointed 
out in my performance review), I presented Ms. Finkler with seven 
proposals ranging from ways to engage in California Water [attachment 
24] to FY14 budget proposals [attachment 25], Ms. Finkler took the 
proposals, but never offered discussion, feedback or decisions to 
proceed. At a meeting in early November 2011, she told me that the 
``ball was in her court' with respect to the California Water proposal 
[attachment 24], and later in November 2011 she told me that she did 
not trust me to act on the California water ideas.
    It is clear that since the time of the disclosure (September 15, 
2011), Ms. Finkler's intention has been to use my probation status to 
terminate my position. She has not offered genuine mentoring or 
guidance, and has not made decisions regarding my proactive strategic 
planning suggestions.
    Termination: On February 8, 2012, Ms. Finkler informed me that my 
expertise and skills were not a good match for the science advisor 
position [attachment 26], and gave me until February 10, 2012 to resign 
or be terminated. There was no specific incident sited for the action, 
and the termination did not result from using poor judgment or failing 
to listen and follow directions, as was her guidance in the letter of 
concern [attachment 17]. On February 10, 2012,1 decided to let the 
position be terminated because I firmly believe the evidence points to 
it being the direct result and the ultimate reprisal for the September 
15, 2011 disclosure. The timing of the termination, being just one 
month before the Klamath Secretarial Determination, suggests that my 
supervisors did not want me included in the decision process; for fear 
that I would make another disclosure that does not support the 
Department's goal to remove the dams. interest. However, conflicts can 
occur for other reasons, such as personal relationships, academic 
competition, and intellectual passion.
    I attest that I have no fiduciary ties or conflicts associated with 
the Klamath River Secretarial decision process. I do not have any 
financial relationships with Klamath River associated industry, 
employment, consultancies, stock ownership, honoraria, expert 
testimony, either directly or through immediate family. I am not an 
author of any reports or the recipient of any research support 
associated with the Klamath River. However, I do have personal impact 
(loss of job) associated with accusation II, but have nothing to 
directly gain or lose from the potential result of this accusation. I 
also plan to submit an appeal for whistleblower protection with the 
Merit System Protection Board (MSPB), and with the Office of Special 
Council (OSC). My motivation for submitting this allegation is to 
uphold the principles of scientific integrity and its code of conduct, 
as is my responsibility as a practicing research scientist.

Cordially,

Dr. Paul R. Houser
Science Advisor & Scientific Integrity Officer
Bureau of Reclamation,
Washington D.C.
Associate Professor, George Mason University, Fairfax, VA

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
